Report No. D-2010-091             September 30, 2010






    DOD Needs to Improve Management and Oversight


        of Operations at the Theater Retrograde-


                  Camp Arifjan, Kuwait


Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ACO                           Administrative Contracting Officer
AMC                           U.S. Army Materiel Command
ARCENT                        U.S. Army Central
COR                           Contracting Officer’s Representative
DCMA                          Defense Contract Management Agency
DRMO                          Defense Reutilization and Marketing Office
NSE                           Nonstandard Equipment
NSN                           National Stock Number
QAR                           Quality Assurance Representative
SARSS                         Standard Army Retail Supply System
TRC                           Theater Redistribution Center
USCENTCOM                     U.S. Central Command
                                INSPECTOR GENERAL 

                              DEPARTMENT OF DEFENSE 

                                 400 ARMY NAVY DRIVE 

                            ARLINGTON, VIRGINIA 22202-4704 



                                                                       September 30, 20 I 0

MEMORANDUM FOR COMMANDER, U.S. CENTRAL COMMAND
               DIRECTOR, DEFENSE CONTRACT
                MANAGEMENT AGENCY
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: 	DOD Needs to Improve Management and Oversight of Operations at the
          Theater Retrograde-Camp Arifjan, Kuwait (RepOlt No. D-20 I 0-091)

We are providing this report for your information and use. As of May 2009, DOD
estimated that the drawdown from Iraq would include the withdrawal of approximately
3.4 million pieces of equipment. The Theater Retrograde at Camp Arifjan, Kuwait, is
respon sible for receiving and processing containers of equipment and ensuring the
equipment's proper disposition. We determined that DOD officials at the Theater
Retrograde did not effectively manage and oversee operations, which resulted in
increased risks that a foreign country or adversary could gain a military or economic
advantage over the United States, increased safety risks, and decreased amounts of
serviceable materiel being reutilized.

DOD Directive 7650.3 requires that recommendations be resolved promptly. We
considered management comments when preparing the final repOlt. The comments from
the Deputy Commanding General , 1st Theater Sustainment Command; Acting Executive
Director, Rock Island Contracting Center; and Commander, Defense Contract
Management Agency International were responsive. Therefore, we do not require any
additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to
Ms. Carol N. Gorman at (703) 604-9 I 79 (DSN 664-9 I 79).



                               Q~~~ ' 

                                  Daniel R. Blair, CPA 

                          Principal Assistant Inspector General 

                                      for Auditing 

Report No. D-2010-091 (Project No. D2010-D000JA-0055.000)                     September 30, 2010


               Results in Brief: DOD Needs to Improve
               Management and Oversight of Operations at
               the Theater Retrograde-Camp Arifjan, Kuwait
What We Did                                               increased safety risks and serviceable materiel
                                                          may not be reused to its maximum potential.
We conducted this audit in response to a request
                                                          DOD may also be receiving a reduced value for
to focus oversight on U.S.-funded assets to
                                                          the services performed, paying undue award
ensure they are properly accounted for and there
                                                          fees, and wasting resources by purchasing the
is a process for assets’ proper transfer, reset, or
                                                          same materiel in the unprocessed containers for
disposal. As of May 2009, DOD estimated that
                                                          use in other overseas contingency operations.
the drawdown from Iraq would include the
withdrawal of approximately 3.4 million pieces            We commend the Army and DCMA for taking
of equipment. The Theater Retrograde at Camp              immediate action to address issues identified
Arifjan, Kuwait, is responsible for receiving and         during the audit.
processing containers of equipment and
ensuring the equipment’s proper disposition.
                                                          What We Recommend
                                                          Among other recommendations, we recommend
What We Found                                             Army officials develop applicable, auditable,
DOD officials did not effectively manage                  and measurable performance requirements for
Theater Retrograde operations. Specifically,              processing materiel and clearly define the
Army and Defense Contract Management                      requirements and limitations for officials
Agency (DCMA) officials did not ensure that               providing contract administration and oversight.
contractor personnel complied with contract               We also recommend Army and DCMA officials
requirements and applicable regulations when              determine the staffing required at the Theater
processing materiel at the Theater Retrograde.            Redistribution Center to process the current and
Army and DCMA officials also did not ensure               increased number of containers.
the contractor had sufficient staffing at the
Theater Redistribution Center to meet container
processing requirements.
                                                          Management Comments and
                                                          Our Response
This occurred because Army officials did not              In response to management comments to the
develop and implement effective policies and              draft report, we revised Finding A to delete
procedures for processing materiel at the                 DCMA from the requirement to develop and
Theater Retrograde. In addition, Army and                 implement policies and procedures for
DCMA officials did not resolve all deficiencies           processing materiel, and we revised Finding B
identified during performance reviews and did             to state that the Army should consider shifting
not perform administrative functions in                   staff to locations that are deficient. We also
accordance with their appointment letters and             moved draft report Recommendation B.2.a to
the Federal Acquisition Regulation.                       Recommendation B.1.c. Management
                                                          comments are responsive, and no additional
As a result, DOD remains at an increased risk             comments are required. Please see the
that a foreign country or adversary could gain a          recommendation table on page ii.
military or economic advantage over the United
States, which could impact national security. In
addition, officials will continue to be exposed to

                                                      i
Report No. D-2010-091 (Project No. D2010-D000JA-0055.000)              September 30, 2010

Recommendations Table
                               Recommendations              No Additional Comments
 Management
                               Requiring Comment            Required
 Commander, 1st Theater
                                                            A.1, A.2, B.1, B.2
 Sustainment Command
 Commander, Defense Contract
                                                            A.2, A.3, B.2
 Management Agency-Kuwait
 Executive Director, Rock
                                                            A.4, B.3
 Island Contracting Center




                                          ii
Table of Contents
Results in Brief	                                                              i


Introduction	                                                                  1


       Objectives                                                              1

       Background                                                              1      

       Review of Internal Controls                                             4


Finding A. Management of Theater Retrograde Operations Needs Improvement 5



       Laws and Regulations                                                   6

       Ineffective Management of Theater Retrograde Operations                7

       Materiel Processing Policies and Procedures Need Improvement          13 

       Conclusion                                                            15       

       Management Actions Taken to Improve Theater Retrograde Operations     16 

       Management Comments on the Finding and Our Response                   17 

       Recommendations, Management Comments, and Our Response                18 


Finding B. Increased Oversight Needed at the Theater Redistribution Center    22 


       Background                                                            22       

       Insufficient Staffing                                                 23 

       Contractor Noncompliance with Container Processing Requirements       24 

       Contract Administration and Monitoring of Contractor Performance      

         Needs Improvement                                                    26 

       Summary                                                                 29 

       Management Actions Taken to Improve Theater Redistribution 

         Center Operations                                                   29 

       Management Comments on the Finding and Our Response                   30 

       Recommendations, Management Comments, and Our Response                30 


Appendices

       A. Scope and Methodology 	                                            34 

       B. Prior Audit Coverage 	                                             37 

       C. Inadequate Alternate Contracting Officer’s Representative Audits   39 

       D. 	Other Matters of Interest—Inadequate Shipment of Materiel from

            Iraq to Kuwait                                                   42 


Management Comments

       U.S. Army Central and 1st Theater Sustainment Command 	               45 

       U.S. Army Materiel Command, U.S. Army Contracting Command, and 

        Rock Island Contracting Center                                       50 

       Defense Contract Management Agency International Comments             56


Introduction
Objectives
The overall objective of our audit was to determine whether DOD was effectively
managing Theater Retrograde operations at Camp Arifjan, Kuwait. Specifically, we
determined whether adequate policies and procedures were in place at the Theater
Redistribution Center (TRC), General Supply Warehouse (Warehouse), and Bulk Yard
for proper equipment reutilization and disposition. In addition, we determined whether
adequate resources were available to effectively process the current and anticipated
volume of equipment at the Theater Redistribution Center during the drawdown of U.S.
forces from Iraq. See Appendix A for a discussion of the scope and methodology,
Appendix B for prior audit coverage related to the audit objectives, Appendix C for
examples of alternate contracting officer’s representative compliance audits, and
Appendix D for other matters of interest.

Background
This audit was conducted (1) in response to a U.S. Central Command (USCENTCOM)
request to focus oversight on U.S.-funded assets to ensure they are properly accounted for
and there is a process for assets’ proper transfer, reset, or disposal; and (2) based on
fieldwork performed during an audit, DOD Inspector General (IG) Report
No. D-2010-027, in which we issued a memorandum to USCENTCOM and U.S. Army
Central (ARCENT) leadership expressing our concerns that the transport of excess
equipment to and within the Theater Retrograde contributed to the destruction of
potentially serviceable materiel.1 USCENTCOM officials responded to the memorandum
stating that USCENTCOM, Multi-National Corps-Iraq (currently U.S. Forces-Iraq),
ARCENT, and the U.S. Army Materiel Command (AMC) were working collaboratively
to ensure the proper disposition of equipment and provide a timely and responsible
drawdown of U.S. forces and equipment from Iraq.

Drawdown from Iraq
On January 1, 2009, the United States entered into an agreement with the Government of
Iraq for the complete withdrawal of U.S. forces and equipment from Iraq by
December 31, 2011. As of May 2009, DOD estimated that the drawdown from Iraq
would include the withdrawal of approximately 3.4 million pieces of equipment. To
assist units and bases with the drawdown, USCENTCOM officials implemented
assistance teams in Iraq to move equipment and materiel to designated locations,
including the Theater Retrograde,2 which is the collection point for excess materiel in the
USCENTCOM Theater of Operations.


1
  The memorandum was included in Appendix D of DOD IG Report No. D-2010-027, “Army’s 

Management of the Operations and Support Phase of the Acquisition Process for Body Armor,” 

December 8, 2009. 

2
  The Theater Retrograde encompasses multiple operations. For purposes of this report, the term Theater 

Retrograde will include operations only at the TRC (includes Retro Sort), Warehouse, and Bulk Yard. 



                                                    1


Theater Retrograde
The Theater Retrograde consists of the TRC (includes Retro Sort), Warehouse, and Bulk
Yard, and employs approximately 980 contractor personnel and 18 military officials. The
Theater Retrograde contractor personnel are responsible for processing materiel and
ensuring proper disposition, which includes reutilization or disposal. Although the
Theater Retrograde can receive materiel from any location in the USCENTCOM Theater
of Operations, contractor personnel mainly receive materiel from Iraq supply support
activities (SSA) or one of the assistance teams aiding in the drawdown. Please see
Figure 1 for the proper flow of excess materiel from Iraq through Kuwait.

              Figure 1. Proper Flow of Materiel from Iraq through Kuwait




    Note 1: We reviewed operations at the TRC, Retro Sort, Warehouse, and Bulk Yard.
    Note 2: The term “user” represents a location for repair and/or reutilization.

TRC personnel are responsible for receiving, sorting, and inspecting materiel. TRC
personnel store unserviceable3 materiel for subsequent repair or send the materiel to the
Camp Arifjan Defense Reutilization and Marketing Office (DRMO) for disposal. TRC
personnel also send serviceable4 materiel to the Warehouse and Bulk Yard for
reutilization. Warehouse personnel process and store serviceable materiel at an indoor
location, and the Bulk Yard personnel process and store serviceable large and bulk
materiel at an outdoor location. Once contractor personnel at the TRC, Warehouse, and
Bulk Yard receive materiel, they record the items in the Standard Army Retail Supply
System (SARSS), which provides automated disposition instructions based on
programmed algorithms established by AMC. The disposition instructions could include


3
  Unserviceable materiel is categorized as: repairable and can be shipped to a depot for maintenance, cannot 

be repaired, or is no longer authorized for use and must be disposed. 

4
  Serviceable materiel is in “like new” condition and can be immediately returned to the supply system for 

use or may be disposed of if excess to Theater requirements. 



                                                     2

storing the materiel, shipping the materiel to a location for repair or reutilization, or
sending the materiel to the DRMO for potential reutilization or disposal.

Roles and Responsibilities
The Army Deputy Chief of Staff for Logistics (G-4) serves as the principal military
advisor on logistics to the Assistant Secretary of the Army (Acquisition, Logistics, and
Technology), and AMC provides acquisition, logistics, and sustainment support for the
Army. AMC is also the Army’s executive agent for retrograde, which is the movement
of equipment and materiel from a deployed theater to a reset program, or another theater
of operations, to replenish unit or stock requirements. To support this effort, AMC has
teams in Kuwait that search for specific Army-managed items designated for
reutilization. AMC also works closely with ARCENT in an effort to provide disposition
instructions for materiel that is still needed in the USCENTCOM Theater of Operations.

Within the Theater, ARCENT has overall responsibility for Army operations and
provides logistical and personnel support for the drawdown, equipment retrograde, and
Afghanistan buildup. The 1st Theater Sustainment Command is a subordinate command
of ARCENT and provides joint command and control of logistics and personnel in
support of combat operations, redeployment of rotating forces, and sustainment of
operating forces, to include providing oversight of Theater Retrograde operations.

Theater Retrograde Operations
In 1999, the U.S. Army Atlanta Contracting Center awarded Combat Support Associates
the Combat Support Services Contract-Kuwait, a $503 million cost-plus-award fee
contract that encompasses several operations, one of which is the Theater Retrograde.5
The contract consists of one base year, nine option years, and two 6-month extensions,
extending contract performance through September 2010. The total contract value
through March 2010 was more than $3 billion. Throughout the life of the contract,
multiple organizations were responsible for contract management, administration, and
oversight. Currently, contract management is assigned to the U.S. Army Contracting
Command, Rock Island Contracting Center; contract administration is delegated to the
Defense Contract Management Agency (DCMA); and day-to-day contract oversight is
delegated by the 1st Theater Sustainment Command to an Army sustainment brigade.

Contracting officers are responsible for overall contract management, to include
monitoring contractor performance and compliance with the terms and conditions of the
contract and applicable laws, regulations, and procedures. Prior to contract award,
contracting officers are also responsible for reviewing solicitations to determine whether
the contractor may require access to classified or controlled information during contractor
performance. If access might be required, the contracting officer is responsible for
inserting clauses into the contract required by the Federal Acquisition Regulation and
Defense Federal Acquisition Regulation Supplement. Inserting these clauses ensures
contractor personnel are aware of the requirements regarding access to classified and
controlled information and increases assurance that the data is protected. Subsequent to

5
    The other operations, which are not discussed in this report, will be discussed other DOD IG reports.


                                                       3


contract award, the contracting officer is responsible for approving any modifications that
may affect the scope, level of effort, or cost of the contract. To assist in performing all of
the required duties, the contracting officer may also delegate some authority.

For the Combat Support Services Contract-Kuwait, the Contracting Officer, Rock Island
Contracting Center, delegated contract administration responsibilities to DCMA, a DOD
Component that works directly with contractors to help ensure supplies and services are
delivered on time, at projected cost, and meet performance requirements. The DCMA
Administrative Contracting Officer (ACO) for the contract is responsible for
administrative support functions and providing technical direction to contractor personnel
including: approving administrative changes, reviewing invoices, ensuring efficient use
of personnel and compliance with quality assurance procedures, and validating
compliance with the contractor’s level of effort necessary to meet the requirements. In
addition to providing administrative support, the ACO appointed a Contracting Officer’s
Representative (COR)6 and multiple alternate CORs to provide oversight of contractor
personnel on a day-to-day basis. The COR and alternate CORs monitored contractor
personnel performance and adherence to the contract through weekly performance
reviews and monthly audits. The COR submitted the audit reports to a DCMA Quality
Assurance Representative (QAR) once a month for review and corrective action. In
addition to reviewing the COR audit reports, the DCMA QAR and COR performed joint
monthly audits that were also used to assess contractor performance.

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. However, internal control
weaknesses existed within the Army and DCMA’s contract management, oversight, and
administration of Theater Retrograde operations.

Army and DCMA officials did not develop and implement policies and procedures to
adequately monitor contractor performance to ensure compliance with contract
requirements and Federal, DOD, and Army regulations when processing materiel at the
Theater Retrograde. Implementing the recommendations in Finding A should protect
classified and controlled materiel from a foreign adversary, decrease safety risks from
exposure to hazardous materiel, and increase the reutilization rate of serviceable materiel.
Implementing the recommendations in Finding B should increase assurance that DOD is
receiving the best value for contracted services performed, and that the TRC has adequate
staffing to meet contract requirements for processing containers and the estimated
increase in the number of containers expected during the Iraq drawdown. We will
provide a copy of the final report to senior Army and DCMA officials in charge of
internal controls for the processing of materiel at the Theater Retrograde.



6
    During this audit, the COR was a 593rd Army Sustainment Brigade official.


                                                      4

Finding A. Management of Theater
Retrograde Operations Needs Improvement
DOD officials did not effectively manage Theater Retrograde operations for the
reutilization and disposition of equipment at Camp Arifjan. Specifically, Army and
DCMA officials did not ensure that contractor personnel complied with contract
requirements and applicable Federal, DOD, and Army regulations when processing
materiel at the Theater Retrograde. For example, contractor personnel did not:

   •		 comply with security requirements to prohibit foreign nationals from
 

       unauthorized access to classified and potentially controlled materiel,
 


   •		 store hazardous materiel properly or have the required equipment to safely 

       respond to a hazardous spill,



   •		 conduct adequate research to identify serviceable nonstandard equipment for
       reutilization, and

   •		 assign correct national stock numbers to serviceable materiel.

This occurred because Army officials did not develop and implement effective policies
and procedures for processing materiel at the Theater Retrograde. In addition, Army and
DCMA officials did not resolve all deficiencies identified during contractor performance
reviews and did not perform administrative functions in accordance with their
appointment letters and the Federal Acquisition Regulation. As a result, DOD remains at
an increased risk that a foreign country or adversary could gain a military or economic
advantage over the United States, which could impact national security. In addition,
officials will continue to be exposed to increased safety risks and serviceable materiel
will not be effectively reutilized, but instead may be potentially destroyed or sold without
direct monetary benefit to the Government.

Army and DCMA officials took immediate action to address some of the issues identified
during the audit. Specifically, Army officials issued guidance for classifying and
distributing nonstandard equipment (NSE), and stated they are considering using other
inventory databases at the TRC to assist contractor personnel in identifying and properly
distributing NSE. Army and DCMA officials also stated they increased the number of
oversight personnel at the Theater Retrograde and updated oversight procedures. See
Management Actions on page 16 for a list of actions taken.




                                             5


Laws and Regulations
Federal, DOD, and Army regulations provide policies and procedures for safeguarding
controlled materiel, to include classified, export controlled, and sensitive materiel. As
required by Executive Order 12829, “National Industrial Security Program,” January 6,
1993, and under the authority of DOD Directive 5220.22, “National Industrial Security
Program (NISP),” September 27, 2004; the DOD Manual 5220.22, “National Industrial
Security Program Operating Manual,” February 28, 2006, prescribes requirements and
safeguards necessary to prevent unauthorized disclosure of classified information in the
interest of national security. Specific to exports, contractors are not to disclose export
controlled information and technology (classified or unclassified) to a foreign person
unless such disclosure is authorized by an export license, other authorization from a
U.S. Government authority, or an exemption to export licensing requirements.
Contractor personnel cleared to access classified data, to include export controlled data,
may also be required to develop a technology control plan, which includes safeguards
such as unique badging, escorts, and segregated work areas necessary to prevent
unauthorized access.

Consistent with national security objectives, DOD Instruction 2040.02, “International
Transfers of Technology, Articles, and Services,” July 10, 2008, provides guidance
related to the release and disclosure of dual-use7 and defense-related (controlled)
technology, articles, and services. The guidance states that controlled technology or
technical data is considered to be released or disclosed when information is transferred to
foreign persons by means of a visual inspection, oral exchange, application of the
technology or data, or the use of any other medium of communication. Any release or
disclosure of controlled technology to any foreign person, whether it occurs in the United
States or abroad, is deemed to be an export.

To implement Federal and DOD guidance, the Army issued regulations for protecting
classified and controlled materiel. Army Regulation 735-5, “Policies and Procedures for
Property Accountability,” February 28, 2005, provides policies and procedures to account
for Army property and defines classified, sensitive, and controlled materiel. According
to the regulation, classified materiel requires protection in the interest of national
security, and controlled materiel is defined as materiel designated to have characteristics
requiring that they be identified, accounted for, secured, segregated, or handled in a
special manner to ensure their safekeeping and integrity. Sensitive materiel is defined as
materiel requiring a high degree of protection and control because of statutory
requirements or regulations and is high-value, highly technical, or hazardous. The Army
also issued Army Regulation 190-51, “Security of Unclassified Army Property (Sensitive
and Non-sensitive),” September 30, 1993, which provides handling procedures for
sensitive materiel and physical security policies and procedures for the safeguarding of
U.S. Army property. For the purposes of consistency within this report, we will refer to
materiel as either classified or controlled (sensitive and export controlled).



7
    Dual use commodities are those goods or technologies that have both commercial and military use.


                                                      6


Ineffective Management of Theater Retrograde
Operations
DOD officials did not effectively manage Theater Retrograde operations for the
reutilization and disposition of equipment at Camp Arifjan. Specifically, Army and
DCMA officials did not ensure contractor personnel complied with contract requirements
and applicable Federal, DOD, and Army regulations when processing materiel at the
Theater Retrograde. Contractor personnel did not comply with security requirements to
prohibit foreign nationals from unauthorized access to classified and potentially
controlled materiel, properly store hazardous materiel or have the required equipment to
safely respond to a hazardous spill, conduct research to identify serviceable NSE for
reutilization, and assign valid national stock numbers (NSN) to serviceable materiel.

Classified and Controlled Materiel Processing Procedures
Army and DCMA officials did not ensure that contractor personnel complied with
security requirements to prohibit foreign nationals8 from unauthorized access to classified
                                                materiel during the receiving process.
       Contractor personnel also had
                                                Contractor personnel also had
     unauthorized access to potentially
                                                unauthorized access to potentially
  controlled materiel during the receiving,
                                                controlled materiel during the receiving,
    inspecting, and sorting processes…
                                                inspecting, and sorting processes, which
                                                did not comply with security
requirements. The contract required the contractor to comply with applicable security
regulations for handling classified and controlled materiel.

Unauthorized Personnel Receiving Materiel
Contractor personnel without the appropriate clearance, to include foreign nationals, were
the first to open the containers of materiel and check for classified and controlled items.
According to the contract, classified and controlled materiel requires a high degree of
protection and control and must be handled in a special manner to ensure their
safekeeping and integrity. To comply with security regulations set forth in the contract,
the contractor developed an internal requirement that only cleared U.S. contractor
personnel could initially open and inspect the container contents. To differentiate
between the cleared U.S. contractor personnel and foreign nationals, the U.S. contractor
personnel were required to wear red hard hats and the foreign nationals blue hard hats.
However, we observed on several occasions that a foreign national was the first and only
employee to view the contents of a container and screen for classified or controlled
materiel (Figure 2). Although classified materiel was not in any of the containers we
observed, our review of calendar year (CY) 2009 container violation reports indicated
that officials in Iraq improperly shipped classified materiel to the TRC in the past.




8
 For purposes of this report, the term “foreign national” is used to refer to a local and/or third-country
national.


                                                       7


          Figure 2. Instances Foreign Nationals (Blue Hard Hats) Were the 

            First to Open and Inspect Containers of Materiel at the TRC 





We also observed that cleared U.S. contractor personnel were not always the first to
inspect materiel upon receipt at the Warehouse. Instead, Warehouse contractor personnel
stated that foreign nationals were responsible for alerting a cleared U.S. contractor
official when they received classified or controlled materiel. If Army and DCMA
officials do not ensure the contractor complies with applicable security requirements,
DOD has an increased risk that foreign nationals may have unauthorized access to
classified and controlled materiel.

Unauthorized Personnel Inspecting Materiel
Foreign nationals at the TRC had unauthorized access to potentially controlled materiel
during the inspection process. Specifically, contractor personnel inspected and conducted
                                         research to identify potentially controlled materiel
   …the contractor did not comply        that arrived at the TRC with no documentation,
    with the contract and security       and determined whether the materiel was
   regulations by allowing foreign       serviceable or unserviceable. The official
   nationals to identify and inspect     documented the materiel and its serviceability on
          controlled items…              an inventory processing sheet and provided the
                                         sheet to a technical inspector. The technical
inspector was a U.S. contractor official who validated that the information for the
materiel was correct. Although our observations showed that a U.S. contractor official
always validated the information, the contractor did not comply with the contract and
security regulations by allowing foreign nationals to identify and inspect controlled items,
such as smoke grenades and weapons’ parts. Contractor personnel stated that
U.S. contractor officials were previously required to process pilferable and controlled
materiel in a separate controlled location; however, they were no longer required to do so.
Instead, contractor personnel processed materiel according to Table 1, which the
contractor included as an attachment in their request to the ACO to process some
controlled materiel in a separate location due to the increased amount of controlled
materiel received.




                                             8


               Table 1. TRC Controlled Materiel Processing Instructions
         CIIC                                      Definition
                  Highest Sensitivity - Non-nuclear missiles and rockets, launcher tube and
           1                                    explosive rounds
           2              Highest Sensitivity - Arms, Ammunition and Explosives
           3             Moderate Sensitivity - Arms, Ammunition and Explosives
           4                 Low Sensitivity - Arms, Ammuntion and Explosives
                  Items assigned a Demil other than A, B, or Q, Subject to theft or unlawful
          7                                        disposition
          9                          Controlled Cryptographic Item (CCI)
          A                         Confidential, Formerly Restricted Data
          B                              Confidential, Restricted Data
          C                                       Confidential
          I                          Aircraft Engine Equipment and Parts
          J                                         Pilferable
          M                            Hand Tools and Shop Equipment
          N                     Firearms Piece Parts and Nonlethal Firearms
          O           Naval Nuclear Propulsion Info, preclude Non authorized Access
          R                Precious Metals, Drugs, or other Controlled Substances
          S                                          Secret
          V                           Pilferable, Clothing and Equipment
          X                   Pilferable, Photographic Equipment and Supplies
          Y                 Communications/Electronic Equipment and Supplies
          Z                             Vehicular Equipment and Parts
       Note: Controlled Inventory Item Code (CIIC) 

       Source: Army Sustainment Brigade 


The new materiel processing procedures only required the materiel highlighted in red
(CIICs 1, 2, O, R, and S) to be inspected in a separate location by personnel with a
security clearance. Contractor personnel considered the other listed items (in green and
yellow) to be “lower level items” and those items could be inspected by U.S. contractor
personnel without a clearance and foreign nationals with all other materiel in an
uncontrolled area.

We reviewed the contractor’s processing procedures referenced in Table 1, compared
those procedures to guidance cited in the contract, and noted inconsistencies. For
example, Army Regulation 190-51 states that controlled cryptographic items require
protection from unauthorized access, including uncontrolled physical possession, which
provides the opportunity to obtain detailed knowledge of the item. However, the table
depicts that controlled inventory item code “9” materiel could be processed by foreign
nationals in an uncontrolled area with all other materiel. In addition, Army
Regulation 735-5 states that sensitive materiel, including those coded “N” and “9,”
require a high degree of protection and control; however, those items were also processed
with all other materiel in accordance with Table 1.

We also observed controlled materiel comingled with other materiel being inspected or
waiting to be sorted and inspected by foreign nationals, such as night vision cameras.


                                                 9


When we questioned the QAR as to whether the cameras had to be processed in a secure
location, the QAR immediately instructed a cleared U.S. contractor official to move the
cameras to a secure storage location for processing. We also observed instances where
potentially controlled items on the U.S. munitions list, such as body armor and laser
sights, were inspected for serviceability by foreign nationals.9 DOD Instruction 2040.02
states that any release or disclosure of controlled technology or technical data to any
foreign person, to include visual inspection, whether it occurs in the United States or
abroad, is deemed to be an export. By allowing foreign nationals to visually inspect
controlled materiel without first obtaining a license, waiver, or other authorized approval,
the contractor could be in violation of U.S. export regulations.

Unauthorized Access to Controlled Item Storage
Foreign nationals at the Bulk Yard had unauthorized access and possession of keys to
controlled item storage containers, which contained materiel such as mobile lasers, sight
units, and machine gun barrels. The contract required the contractor to comply with
Army Regulation 190-51, which states that a key control plan must be created and keys
will only be issued to individuals authorized to have access to the materiel. The guidance
also states that in order to have authorized access, personnel must be on a key control
register. However, we observed foreign nationals that were not on the key control
register who had possession of keys to the controlled storage containers and appeared to
have access on a routine basis. Unauthorized access and inadequate safeguards for
protecting controlled materiel and technologies from unauthorized disclosure could give a
foreign country or adversary a military or economic advantage over the United States,
potentially impacting national security.

Improper Storage and Safety Equipment for Hazardous Materiel
Army and DCMA officials did not ensure that TRC contractor personnel stored
hazardous materiel properly or had the required equipment to safely respond to a
hazardous spill in accordance with contract requirements. The contract required the
contractor to comply with Army Regulation 700-68, “Storage and Handling of Liquefied
and Gaseous Compressed Gasses and their Full and Empty Cylinders,” June 16, 2000,
which states that all compressed gas cylinders awaiting use or shipment shall be secured
in an upright position, placed tightly together, and stored in an area where it is unlikely
that they will be knocked over. However, while accompanying the QAR on his monthly
audit of TRC operations on January 29, 2010, we observed gas cylinders stored on their
side and not properly braced or protected.

The contract also stated that the contractor shall have three hazardous materiel spill kits,
which include all necessary supplies to respond to emergency situations. However, we
observed that the contractor only had two spill kits on hand, and one of the kits was
incomplete and not in an easily accessible location. In addition to the improper storage
and the lack of required spill kits, the contractor also did not comply with the contract

9
 The U.S. Munitions List controls the export of defense-related technologies in order to safeguard national
security. In the U.S. Munitions List, body armor is included in Category X and lasers are included in
Category XII.


                                                    10

requirement to provide secondary containment devices10 during temporary and permanent
storage. The secondary containment device used by the contractor resembled a tarp but
had more than four holes, which would not have protected the area from a spill had one
occurred. Subsequent to identifying the issues with improper storage and safety
measures, the QAR issued a corrective action request that required contractor personnel
to immediately correct the safety violations. Army and DCMA officials should continue
to enforce compliance with safety procedures to ensure contractor personnel and military
officials are not at risk.

Research Needed to Identify NSE
Army and DCMA officials did not ensure that TRC contractor personnel complied with
the contract by exercising due diligence and conducting adequate research to identify
NSE11 that arrived without documentation. Army and DCMA officials also did not
ensure that TRC contractor personnel contacted AMC or other appropriate officials for
disposition guidance in accordance with the contract. The contract stated that the
contractor must use multiple resources and make every attempt to identify undocumented
NSE. Contractor personnel can identify NSE by a part number or other legible marking
and research the materiel using the Federal Logistics Database12 or the internet. If
contractor personnel cannot identify the materiel, the contract requires them to segregate
the NSE and contact the AMC to obtain disposition instructions. Instead of following
procedures outlined in the contract, however, TRC contractor personnel assigned low
dollar values to serviceable NSE and sent those items directly to the Camp Arifjan
DRMO (the DRMO).

Contractor personnel stated that they applied low dollar values because they believed the
dollar value was irrelevant, since they were sending all NSE to the DRMO for disposal.
Contractor personnel also stated that they were sending serviceable NSE to the DRMO
because AMC officials would only provide disposition instructions for Army managed
equipment, to include materiel with a nonstandard NSN.13 The contractor personnel
further stated that if they processed the serviceable NSE in SARSS to obtain disposition
instructions, the materiel would be directed to the Warehouse, which does not accept
NSE. Therefore, rather than processing the materiel through SARSS, contractor
personnel completed manual shipping documentation to send the materiel to the DRMO.

During several site visits to the DRMO in February 2010, we physically inspected
multiple NSE with low dollar values and researched four of the items using the Federal
Logistics Database and internet. We found three of the four NSE with minimal effort,
and documented the approximate values listed in Table 2.


10
   Secondary containment devices were placed under hazardous materiel to minimize the impact and spread 

of a spill.

11
   NSE is materiel commercially acquired and fielded outside the normal acquisition process to bridge 

mission capability gaps and meet urgent requirements. 

12
   The Federal Logistics Database is used to reference information on items, such as diagrams, and their 

part numbers to their NSN. 

13
   A nonstandard NSN should be applied to NSE in order to identify and account for the NSE.
 



                                                   11

                         Table 2. NSE Inspected at the DRMO
                NSE Materiel       Assigned Value      Approximate Value
                  Shredder             $50.00             $13,000.00
                 Solar Panel            $1.00               $250.00
                Water Heater           $25.00               $700.00

Although the DRMO contractor personnel may have made the NSE available for
reutilization, the low dollar values assigned by TRC contractor personnel could impact
the likelihood of the items being reutilized. For example, an Army official with a
requirement for a high-capacity shredder would have no way of knowing the $50.00
shredder at the DRMO was the same item as the $13,000 high-capacity shredder, unless
the official physically observed the inventory for reutilization at the DRMO. After a
42-day reutilization period at the DRMO, all serviceable NSE is potentially destroyed or
sold without direct monetary benefit to the Government.

We also reviewed DRMO turn-in receipt data for CY 2009,14 and found that TRC
contractor personnel sent potentially serviceable NSE valued at approximately
$16.8 million to the DRMO. Using the DRMO reutilization rate of 7 percent, we
estimated that DRMO contractor personnel may have destroyed or sold potentially
serviceable NSE valued at approximately $15.6 million in CY 2009.15 In addition, due to
TRC contractor personnel assigning low dollar values to the NSE as discussed above, the
total dollar values of NSE sent to the DRMO and potentially destroyed or sold could be
significantly underestimated.16 To increase the reutilization rate, Army officials should
determine whether AMC is the appropriate command to provide TRC contractor
personnel disposition guidance for NSE and develop business rules to ensure contractor
personnel are using the proper care to identify NSE and apply realistic dollar values.

Applying Incorrect National Stock Numbers
Army and DCMA officials did not ensure that TRC, Warehouse, and Bulk Yard
contractor personnel manually applied the correct NSN to serviceable materiel as
required by the contract. The contract stated that when materiel arrives at a location with
identifying documentation, the contractor will verify that the NSN, quantity, and
nomenclature are correct prior to entering the materiel into SARSS. However,
Warehouse contractor personnel stated that TRC contractor personnel often mistakenly
applied the incorrect NSN to materiel. Subsequently, we observed Warehouse contractor
personnel validating the NSN for materiel received from the TRC using the Federal

14
   Data was provided by Defense Logistics Agency Disposition Services officials.
15
   We calculated the 7-percent reutilization rate using data provided by Defense Logistics Agency
Disposition Services officials. We used the total dollar value of all materiel reutilized for CY 2009 and
divided that number by the total dollar value received. We then applied the 7-percent reutilization rate to
the total dollar value of NSE received to determine the amount reutilized, and further calculated the amount
potentially destroyed or sold.
16
   This statement is based on the results of auditor observations, interviews, and identification of NSE
shredders, solar panels, and water heaters that were underestimated by approximately 260; 250; and
28 times their approximate acquisition value, respectively.


                                                    12

Logistics Database, and the documentation originally prepared by the TRC contractor
personnel was incorrect. Although Warehouse contractor personnel identified and
corrected the NSN prior to entering the materiel into SARSS, the number of Warehouse
and Bulk Yard inventory adjustment reports illustrates that those contractor personnel
also did not always identify or apply the correct NSN.

We reviewed January 2009 to September 2009 inventory adjustment reports and found
that Warehouse and Bulk Yard contractor personnel submitted 112 inventory adjustment
reports, the majority of which resulted from contractor personnel applying the incorrect
NSNs to materiel. We also conducted a physical inventory using a judgment sample of
approximately 15-percent of the controlled materiel at the Bulk Yard and found that
contractor personnel applied the incorrect NSN to controlled materiel. For example, we
selected “light warnings” and counted 28 lights. However, a review of SARSS indicated
that 84 light warnings were on hand. After further review, we determined that the
contractor improperly applied the NSN for light warnings to 56 other items. Although
the light warnings were not missing, having an error of actual inventory on hand could
impact the likelihood of materiel being reutilized or fulfilling a requirement for
supporting other overseas contingency operations. To increase assurance that inventory
records are accurate, Army and DCMA should increase oversight to ensure contractor
personnel are consistently verifying that the NSN, quantity, and nomenclature are correct
prior to entering the materiel into SARSS.

Materiel Processing Policies and Procedures Need
Improvement
Army officials did not implement effective policies and procedures for processing
materiel at the Theater Retrograde. In addition, Army and DCMA officials did not
resolve all deficiencies identified during contractor performance reviews and perform
administrative functions in accordance with their appointment letters and the Federal
Acquisition Regulation.

Effective Policies and Procedures Not Implemented
The COR did not implement effective policies and procedures to adequately monitor
contractor performance and ensure compliance with contract requirements. The
appointment letter required the COR to monitor contractor performance by conducting
monthly compliance audits using a standardized checklist to verify compliance with
contract requirements. The COR divided the checklist into multiple sections and
delegated responsibility to the alternate CORs to verify each requirement through daily
audits until the alternate CORs completed the checklist.17 However, we reviewed
approximately 170 daily audit reports from September 2009 through December 2009 and
identified that none of the standardized checklists were completed each month. For
example, the audit reports did not include any data on whether the contractor processed
the required amount of materiel. Without this data, the COR was unable to determine if
the contractor complied with the materiel processing requirement as stated in the

17
  It should be noted that providing oversight of the Theater Retrograde contractor personnel was the COR
and alternate CORs’ full-time responsibility.


                                                   13

contract. In addition, completion of the standard checklist did not always provide
assurance that the contractor provided services in accordance with the contract. See
Appendix C for examples of the inadequate audit reports the COR provided to the QAR.

Joint monthly audits conducted from September 2009 through December 2009 by the
QAR and COR also did not provide assurance as to whether the contractor complied with
contract requirements. For example, one of the audit objectives was to verify whether the
TRC contractor only allowed cleared personnel to process controlled items. Rather than
physically observing or testing procedures to verify whether the contractor personnel
complied with the requirement, the QAR relied on testimonial evidence from the TRC
Department Manager, who stated that only contractor personnel with the appropriate
clearance process controlled items. Relying on testimonial evidence rather than
observing and validating compliance with the requirement does not provide adequate
assurance that controlled items are being properly protected in accordance with Federal,
DOD, and Army regulations.

Procedures Needed to Resolve Deficiencies
Subsequent to the alternate CORs identifying deficiencies during performance reviews,
the COR and QAR did not ensure the deficiencies were resolved. For example, the COR
and QAR identified during a November 2009 audit that the spill kits in the TRC
hazardous materiel area were incomplete. During our review of December 2009 audit
reports, we found that an alternate COR identified the same issue. Alternate CORs also
identified during an October 2009 audit that Warehouse contractor personnel improperly
rejected serviceable materiel from the TRC, for reasons such as the incorrect NSN. Some
of the serviceable materiel the contractor personnel rejected and sent back to the TRC
included two Marine Mine Roller Systems, valued at $600,000; three hydraulic tool kits,
valued at $150,000; and two transfer transmissions, valued at $40,000. Although the
alternate COR identified and reported the deficiency, the COR and QAR did not follow
up on the issue to ensure the contractor personnel resolved it, and the alternate CORs
continued to identify and report the same issue five times during that same month. To
ensure the performance reviews conducted by the alternate CORs are useful and
effective, Army and DCMA officials should develop procedures to ensure deficiencies
are resolved in a timely manner.

Inadequate Contract Administration
The COR and ACO did not administer the contract in accordance with their appointment
letters, and the Contracting Officer did not perform functions in accordance with the
Federal Acquisition Regulation. The COR appointment letter required the COR to verify
                                           the technical requirements of the contract;
     The COR was also unaware of           however, as discussed above, the COR failed to
   which requirements the contractor       review or verify the performance requirements
      was required to comply with.         during monthly audits. In addition, the COR
                                           was unable to provide us a conformed copy of
the contract and instead, provided us multiple copies of contractual requirements, which
included current requirements and one requirement for a different contract. The COR
was also unaware of which requirements the contractor was required to comply with.


                                           14


The appointment letter also states that the COR may not make any contractual
agreements or take any action that may affect the contract scope. However, the COR
improperly approved the contractor’s internal procedures that allowed them to send
serviceable NSE directly to the DRMO without contacting AMC for disposition
instructions, which were procedures that contradicted the requirements in the contract.
Rather than allowing the contractor to not comply with the contract, the COR should
have reported the issue to the QAR, which could have resulted in DCMA and Army
officials determining who should provide disposition instructions, potentially increasing
the reutilization rate of NSE.

The ACO also acted without proper authority by approving changes to the contract for
processing controlled materiel at the TRC. Specifically, the ACO approved the
contractor’s request to process only certain controlled materiel in a separate location, and
according to the ACO appointment letter, the ACO did not have the authority to make
that type of change. Based on the change, foreign nationals were allowed to process the
remaining controlled materiel along with all other materiel (refer to Table 1 on page 9).
Because the ACO issued the change, DOD increased its risk that foreign nationals could
process controlled materiel, potentially impacting national security. Army and DCMA
officials should review the changes and ensure compliance with Army, DOD, and Federal
regulations.

Although the Federal Acquisition Regulation requires the Contracting Officer to ensure
the contractor complies with all requirements of law, executive orders, regulations, and
other applicable procedures during the performance of the contract, the Contracting
Officer did not ensure that the ACO’s changes to processing controlled materiel complied
with Federal, DOD, and Army security regulations. In addition, the Contracting Officer
did not modify or incorporate by reference the Defense Federal Acquisition Regulation
Clause 252.204-7008 into the contract. The Contracting Officer is required to include the
clause in all solicitations and contracts to remind DOD contractors and subcontractors of
their obligation to comply with the International Traffic in Arms Regulations and the
Export Administration Regulations. The clause is specifically to be used when export
controlled items, including information or technology, are expected to be involved in
contract performance, or when there is a possibility these items may be used during the
period of contract performance. Had the Contracting Officer included the Defense
Federal Acquisition Regulation clause in the contract, it may have precluded some of the
unauthorized technical inspections of export controlled materiel from occurring at the
Theater Retrograde.

Conclusion
Because Army and DCMA officials were not providing adequate management and
oversight of Theater Retrograde operations, DOD remains at an increased risk that
serviceable materiel may not be processed accurately and may be destroyed or sold
without direct monetary benefit to the Government. Improving contract oversight and
identifying the proper command to provide disposition instructions should decrease the
amount of potentially serviceable NSE sent to and possibly destroyed at the DRMO.
Ensuring compliance with the contract and applicable requirements should also protect


                                            15


classified and controlled materiel from unauthorized disclosure, decrease safety risks
from exposure to hazardous materiel, and increase DOD’s capabilities to fulfill support
requirements for overseas contingency operations.

To increase the Contracting Officer’s assurance that the Army and DCMA officials are
providing adequate oversight to ensure contractor performance and compliance with the
terms of the contract; requirements of law, executive orders, regulations; and all other
applicable procedures, the Contracting Officer should require that the officials maintain a
conformed copy of the contract and update and consolidate all contract files prior to each
rotation. In addition, to prevent Army and DCMA officials from acting outside their
authority and ensure they perform their required duties, the Contracting Officer should
clarify roles and responsibilities for each official providing contract oversight and
reconsider the amount of authority delegated.

Management Actions Taken to Improve Theater
Retrograde Operations
We commend the Army and DCMA for taking immediate action to address issues during
our site visits. Army officials issued guidance for classifying and distributing NSE and
stated they are considering using other inventory databases at the TRC, such as the
Materiel Enterprise Nonstandard Equipment, to assist contractor personnel in properly
identifying and distributing NSE. During our second site visit in February 2010, Army
officials removed the COR for poor performance. Army and DCMA officials also stated
that they:

    •		 conducted an audit of the Bulk Yard and addressed security deficiencies;

    •		 started formalizing the business rules necessary to catalog NSE;

    •		 introduced the Nonstandard Line Item Number Module at the TRC, which
        provides contractor personnel additional researching tools to assist in identifying
        undocumented materiel;

    •		 coordinated with AMC officials to obtain assistance in cataloging and identifying
        materiel at the TRC;

    •		 increased the number of CORs and alternate CORs assigned to the TRC, 

        Warehouse, and Bulk Yard to provide day-to-day oversight; 


    •		 updated the COR, alternate COR, and QAR audit standardized checklists and are
        developing additional steps in the QAR checklist to evaluate how well contractor
        personnel are identifying serviceable materiel; and

    •		 issued 11 corrective action requests to the contractor within a 6-month time
        period.




                                            16

Due to yearly rotations, a new Command replaced the Sustainment Brigade in May 2010.
Although Army and DCMA officials stated they took the above actions, we did not
modify our recommendations in an effort to further increase assurance that the
recommendations will be implemented. While the recommendations in this report will
improve current Theater Retrograde operations, once a new contract is awarded, it will be
equally important that Army and DCMA officials properly manage the contract and
oversee contractor performance and adherence to the contract requirements to ensure
DOD is receiving the services contracted for. Therefore, the recommendations in this
report should also be applied to the follow-on Theater Retrograde contract.

Management Comments on the Finding and Our
Response
DCMA Comments
The Commander, DCMA International, disagreed in part with the finding. The
Commander stated that DCMA is not responsible for developing and implementing
policies and procedures for processing materiel at the Theater Retrograde, and policies
and procedures are set forth in the terms and conditions of the contract. Furthermore, the
Commander stated that DCMA officials are not subject matter experts in Theater
Retrograde Operations, and DCMA relies on the expertise of the CORs to help identify
the contractor’s technical deficiencies. The Commander also stated that they have not
located documentation of the ACO’s change to the contract for processing controlled
materiel, and that DCMA ACOs are generally authorized to make administrative contract
changes. The Commander added that without reviewing the contract change document,
they cannot agree that the ACO exceeded his authority.

The Commander provided multiple actions taken since the audit, to include implementing
a robust Management and Internal Control Program; updating Kuwait’s Theater Quality
Plan and DCMA’s surveillance checklists; increasing the number of inspection lanes for
materiel and the number of security personnel; and issuing multiple corrective action
requests for improper handling of materiel.

Our Response
We agree with the Commander’s comment that DCMA is not responsible for developing
and implementing policies and procedures for processing material at the Theater
Retrograde. Therefore, we revised the finding to state that the Army did not develop and
implement effective policies and procedures. In response to the Commander’s comment
that they cannot agree that the ACO exceeded his authority without reviewing the
contract change document, we obtained the documentation from Army officials and met
with DCMA-Kuwait officials on February 4, 2010. The ACO verified that he signed the
documents, which approved the contractor to process controlled materiel differently. As
discussed on page 15, the ACO did not have the authority to make this change.




                                            17


Recommendations, Management Comments, and Our
Response
A.1. We recommend the Commander, 1st Theater Sustainment Command,
coordinate with officials from the U.S. Army Materiel Command and the Army
Deputy Chief of Staff for Logistics (G-4) to develop business rules so that
nonstandard equipment at the Theater Redistribution Center is reutilized to its
maximum capability. These rules should provide guidance for the amount of time a
contractor should spend researching specific items based on dollar value, critical or
future need, or other requirement; and a point of contact to assist in obtaining
disposition instructions.

1st Theater Sustainment Command Comments
The Deputy Commanding General, 1st Theater Sustainment Command, provided
comments through the Commander, Third Army/ARCENT, that agreed with
Recommendation A.1. The Deputy Commanding General stated that officials from the
1st Sustainment Brigade, AMC, ARCENT, Deputy Chief of Staff for Logistics (G-4),
Rock Island Contracting Center, and Defense Logistics Agency worked together to
develop and implement business rules to improve NSE disposition at the TRC. The
Deputy Commanding General stated that improvements include implementing a Letter of
Technical Direction that specifies research time-periods to the contractor; incorporating
the AMC Installation Supply Representative and Life Cycle Management Commands
into the identification and research processes; and improving overall contractor oversight
through trained CORs, which is critical to addressing the security concerns reported in
the audit. The Deputy Commanding General further stated that the 1st Theater
Sustainment Command has continued to work with key stakeholders to improve business
rules regarding the disposition process at the strategic level.

Our Response
The Deputy Commanding General, 1st Theater Sustainment Command comments are
responsive. Subsequent to providing official comments, an ARCENT official e-mailed
us stating that corrective actions were implemented no later than August 26, 2010. No
additional comments are required.

A.2. We recommend the Commander, 1st Theater Sustainment Command, and the
Commander, Defense Contract Management Agency-Kuwait:

       a. Update the audit standardized checklists for the Contracting Officer’s
Representative and Quality Assurance Representative to ensure they are able to
verify whether contractor personnel complied with contract requirements and
applicable Federal, DOD, and Army regulations.

       b. Develop procedures that ensure deficiencies identified by the Contracting
Officer’s Representative, Alternate Contracting Officer’s Representative, and
Quality Assurance Representative are resolved in a timely manner based on the
severity of the deficiency.


                                            18

1st Theater Sustainment Command Comments
The Deputy Commanding General, 1st Theater Sustainment Command, agreed and stated
that significant improvements were made to the COR and QAR standardized checklists in
May 2010, and 1st Theater Sustainment Command officials will continue to refine these
documents and provide contractor performance feedback. The Deputy Commanding
General also stated that officials within the 1st Theater Sustainment Command and
1st Sustainment Brigade have implemented daily, weekly, and monthly procedures to
improve contract oversight and communication between the contractor and
U.S. Government.

Our Response
The Deputy Commanding General, 1st Theater Sustainment Command comments are
responsive. Subsequent to providing official comments, an ARCENT official e-mailed
us stating that corrective actions were implemented no later than August 26, 2010. No
additional comments are required.

DCMA Comments
The Commander, DCMA International, agreed and stated that the QAR reviewed and
updated all audit/surveillance checklists to ensure they coincided with the COR checklists
and addressed specific findings in the report. The Commander also stated that DCMA-
Kuwait officials performed a comprehensive review and revision of its Theater Quality
Plan, June 24, 2010.

The Commander stated that DCMA-Kuwait has procedures in place to adequately track
contractor deficiencies. DCMA officials address the deficiencies through corrective
action requests and track them using a network share drive. All pertinent information, to
include subject matter, milestone dates, and status, is included in the database. DCMA
officials track the corrective action requests through closeout.

Our Response
The Commander, DCMA International comments are responsive. For
Recommendation A.2.b, although the Commander did not specifically state that DCMA
would develop procedures to ensure deficiencies are resolved, we believe the procedures
discussed in the Commander’s comments, if implemented, will meet the intent of the
recommendations. Therefore, no additional comments are required.

A.3. We recommend the Commander, Defense Contract Management Agency-
Kuwait:

      a. Direct contractor personnel at the Theater Redistribution Center to
comply with the business rules referenced in Recommendation A.1.

       b. Direct contractor personnel at the Theater Retrograde to comply with
hazardous materiel and security regulations as stated in the contract and export
control laws and regulations.


                                           19

DCMA Comments
The Commander, DCMA International, agreed and stated that the QAR will provide
oversight and ensure that the contractor is complying with the business rules when the
contract is modified. The Commander also stated that the function of DCMA is to verify
whether the contractor complies with the terms and conditions of the contract. If not, the
QAR may issue a corrective action request, or the deficiency may warrant the attention
and direct involvement of the ACO, depending on the immediacy, severity, and risk
assessment of the deficiency.

Our Response
The Commander, DCMA International comments are responsive. We contacted a
DCMA-Kuwait official for clarification on DCMA’s response to Recommendation A.3.b,
and the official stated that DCMA officials direct contractor personnel to comply with the
contract through issuing corrective action requests and track the requests through
completion. The official also stated that the revised audit checklists used by the QAR
include steps to ensure compliance with hazardous materiel and security regulations. No
additional comments are required.

A.4. We recommend the Executive Director, Rock Island Contracting Center:

       a. Modify the contract to include the required Defense Federal Acquisition
Regulation clauses requiring compliance with laws and regulations specific to
processing export controlled materiel.

       b. Review the Administrative Contracting Officer’s change to the processing
of controlled materiel and assess compliance with Federal, DOD, and Army
regulations.

       c. Require the Administrative Contracting Officer, Quality Assurance
Representative, Contracting Officer’s Representative, and Alternate Contracting
Officer’s Representatives to maintain a conformed copy of the contract and update
and consolidate all contract files prior to their departure from Kuwait.

       d. Redevelop and issue appointment letters for the Administrative
Contracting Officer, Quality Assurance Representative, Contracting Officer’s
Representative, and Alternate Contracting Officer’s Representative that clearly
define their roles, responsibilities, and authority for providing contract
administration and oversight.

       e. Direct the Administrative Contracting Officer to review the Quality
Assurance Representative’s monthly audit reports and direct the Quality Assurance
Representative to review the Contracting Officer’s Representative monthly audit
reports. The reviews should ensure that DOD officials conducted the audits
appropriately, met the intent of the audit, discussed actions needed with the
contractor, and resolved the issues in a timely manner.



                                            20

Rock Island Contracting Center Comments
The Executive Deputy to the Commanding General, AMC and the Executive Director,
U.S. Army Contracting Command, endorsed and forwarded comments for the Acting
Executive Director, Rock Island Contracting Center. The Acting Executive Director
agreed with Recommendations A.4.a, A.4.b, A.4.d, and A.4.e, and stated that the
applicable Defense Federal Acquisition Regulation clauses are expected to be
incorporated into the contract by September 30, 2010. The Executive Director also stated
that Rock Island Contracting Center will review the ACO’s change to the processing of
controlled materiel and assess compliance with applicable regulations by September 30,
2010.

The Executive Director stated that Rock Island Contracting Center delegated contract
administration to DCMA, which is responsible for appointing ACOs, QARs, CORs, and
Alternate CORs. However, Rock Island Contracting Center is developing a Contract
Administration Plan to clearly define the roles and responsibilities of all contract
officials. The Acting Executive Director further stated that DCMA currently reviews
QAR monthly audit reports and is responsible for conducting monthly audits. Monthly
management assessments are also being conducted to discuss quality issues and
corrective actions.

The Acting Executive Director, Rock Island Contracting Center, partially agreed with
Recommendation A.4.c and stated that they will require the ACO, QAR, CORs, and
Alternate CORs to maintain a conformed copy of future contracts and will update and
consolidate all contract files prior to their departure from Kuwait. However, the Acting
Executive Director stated that because the current contract expires on September 30,
2010, and there are more than 300 modifications, there would be no value in
consolidating the current contract.

Our Response
The comments from the Acting Executive Director are responsive. For
Recommendation A.4.c, we agree that the Acting Executive Director should require
DCMA officials to maintain a conformed copy of future contracts, and that consolidating
the current contract is not beneficial since it expires on September 30, 2010. For
Recommendation A.4.e, we contacted a Rock Island Contracting Center official to obtain
clarification on planned actions. The official stated that a requirement for the ACO to
review the QAR reports and for the QAR to review the COR reports will be included in
the Contract Administration Plan, which is expected to be completed by October 30,
2010. No additional comments are required.




                                           21


Finding B. Increased Oversight Needed at
the Theater Redistribution Center
DOD did not ensure that the contractor had sufficient staffing at the TRC to effectively
process the required number of containers in accordance with the contract. In addition,
DOD may not have sufficient contracting personnel to process the increased number of
containers as the drawdown from Iraq progresses. This occurred because:

   •		 the ACO removed the performance workload requirement without proper
       authorization, written justification, or consideration in accordance with Federal
       acquisition regulations, and

   •		 Army and DCMA officials did not hold the contractor accountable for complying
       with the staffing and performance requirements in the contract.

As a result, DOD may be receiving a reduced value for the services performed and could
pay undue award fees. In addition, if Army and DCMA officials do not ensure the TRC
has the staffing necessary to process the current and estimated containers, the backlog of
containers could increase from more than 520 containers in March 2010 to more than
2,290 containers in August 2010. The increased backlog could further increase the
likelihood that DOD may waste resources by purchasing the same materiel in the
unprocessed containers for use in other overseas contingency operations.

Army and DCMA officials took immediate action to address some of the issues identified
during the audit. Specifically, Army officials stated that they worked closely with
officials from DCMA and the Rock Island Contracting Center to develop effective
performance metrics to be incorporated into the contract and appointed an Army
Sustainment Brigade official to gather many of the previously missing contract
documents and maintain the contract files. Army officials also stated they examined the
staffing shortfalls at the TRC and recommended that the contractor hire an additional
55 contractor personnel. See Management Actions on page 29 for a list of actions taken.

Background
The contract provides staffing and performance requirements. For staffing, the contract
required the contractor to maintain a 90-percent staffing level. The performance
requirements included the requirement to comply with the receipt processing time
outlined in Army Regulation 710-2, “Supply Policy Below the National Level,”
March 28, 2008, and the performance workload requirement in the contract. Army
Regulation 710-2 defines receipt processing as the time materiel is received to the time
the stock control activity accounts for the materiel, which should be completed within
24 hours. The performance workload requirement in the contract stated that the
contractor should be able to process at least 300 containers a week and should estimate




                                            22


that approximately 80 percent of the materiel received would be undocumented.18 If the
contractor fails to meet any of the contract requirements, the Government may, with
approval of the Contracting Officer, perform or supplement performance of such services
with Government personnel, request consideration, or reduce any fee payable under the
contract to reflect the value of the services performed.

ARCENT officials, responsible for providing logistical and personnel support during the
drawdown, provided container drawdown plans that estimated approximately
55,000 containers would require transportation from Iraq as of December 2009. From
December 2009 through March 2010, ARCENT officials estimated that approximately
2,500 containers would be transported from Iraq each month, and could increase to
approximately 3,500 containers each month from April 2010 through August 2010
(Table 3). 19

          Table 3. Estimated Containers Requiring Transportation from Iraq




From December 2009 through March 2010, the TRC received approximately 730 of the
estimated 2,500 (29.2 percent) containers leaving Iraq each month. If the trend
continues, beginning in April 2010, the TRC could receive 1,022 of the estimated
3,500 containers leaving Iraq each month, an increase of 292 containers.

Insufficient Staffing
DOD did not ensure that the contractor had sufficient staffing at the TRC to effectively
process the required number of containers in accordance with the contract. In addition,
DOD may not have sufficient contracting personnel to process the increased number of
containers as the drawdown from Iraq progresses. The contract stated that the contractor
is required to maintain a 90-percent staffing level and provide the flexibility to increase
manpower as the workload and volume increases. The staffing levels, agreed to by

18
   The contractor was also required to process 300 pallets of materiel or 450 20-foot equivalent units per 

week; however, we did not audit this requirement due to the amount of time and audit resources required to 

thoroughly review container processing at the Theater Retrograde. 

19
   ARCENT container estimates may vary based on changes to the conditions and mission in Iraq. 



                                                    23


Army, DCMA, and contractor officials, included numbers for both U.S. contractor
personnel and foreign nationals, as foreign nationals can not process all materiel at the
TRC.

We reviewed TRC staffing levels as of January 21, 2010, and determined that the
contractor did not comply with the staffing requirement as illustrated in Table 4.
Specifically, the contractor did not comply with the 90-percent requirement for
U.S. contractor personnel in all six TRC areas and foreign nationals in two areas. During
fieldwork, DCMA officials stated that the contractor planned on increasing the number of
U.S. contractor personnel and foreign nationals; however, as of April 11, 2010, the
contractor had not complied with the 90-percent requirement.

                      Table 4. TRC Contractor Staffing Levels
                             January 21, 2010    April 11, 2010
                    Areas     U.S.       FN     U.S.        FN
                               %         %       %           %
                      1

      88        93      71         153
                      2

      80        88      60          97
                      3

      54        86      89          83
                      4

      84        96      74          83
                      5

      79        96      69         102
                      6

      75       100      75         133
                 Note 1: Shaded cells indicate noncompliance with the 90-percent staffing level
                 Note 2: Foreign national (FN)

We were particularly concerned with the shortage of U.S. contractor personnel in the
Download and Sort area (Area 2), where the download, sort, and inspection of materiel
occur. Although contractor personnel could use up to nine lanes to download, sort, and
                                                        inspect materiel, we observed
   Although contractor personnel could use up to
                                                        contractor personnel operating
      nine lanes to download, sort, and inspect
                                                        only one to three lanes. To operate
    materiel, we observed contractor personnel
                                                        a lane, a U.S. contractor must be
         operating only one to three lanes.
                                                        present. However, contractor
personnel stated that they were only operating one to three lanes because of the shortage
of U.S. contractor personnel. Increasing the staffing levels for both U.S. contractor
personnel and foreign nationals should increase the number of operating lanes and the
amount of materiel processed and available for reutilization.

Contractor Noncompliance with Container Processing
Requirements
TRC contractor personnel did not process the number of containers received or the
required number of containers in accordance with the contract. The contract stated that
contractor personnel were required to process at least 300 containers of materiel per
week, and that the materiel receipt processing time (24 hours) be strictly enforced.




                                                24


Container Processing Rate
We reviewed TRC daily container production reports from September 2009 through
March 2010 and found that when the TRC received less than 300 containers per week,
contractor personnel did not process the containers in accordance with the 24-hour receipt
processing time in the contract. Specifically, from September 2009 through March 2010,
the TRC received on average 172 containers per week (735 per month) and only
processed on average 156 containers per week (668 per month). In addition, when
contractor personnel received more than 300 containers in a week, they were unable to
process the minimum requirement of 300 containers. Contractor personnel stated that
one of the reasons they could not process 300 containers per week was because of the
poor packing and shipping by DOD officials in Iraq and the lack of materiel
documentation, which required additional processing time. While the majority of the
materiel being received at the TRC was undocumented and contractor personnel required
additional processing time, the contract stated that the contractor should estimate that
approximately 80 percent of the materiel being received would be undocumented and
therefore, the contractor should have had measures in place to process containers in
accordance with contract requirements (See Appendix D).

Because contractor personnel were unable to process all containers in accordance with
the performance requirements, the TRC had a backlog of unprocessed containers. During
our first site visit in December 2009, the TRC had a backlog of approximately
447 unprocessed containers (increased to 491 containers by the end of the month), some
of which arrived at the TRC two months earlier. During our second site visit in
February 2010, the backlog of unprocessed containers had increased to 594 containers.
While we understand that contractor personnel will eventually process the backlog of
containers, DOD does not always know what materiel is in the containers, which could
include materiel that DOD may need to retrograde for other overseas contingency
operations.

Container Processing Estimates
Using ARCENT estimates, the TRC could start to receive 1,022 containers per month,
beginning in April 2010. If contractor personnel continue to process materiel at the
average rate of 668 containers per month, the backlog of unprocessed containers could
reach 2,293 containers by August 2010, which could take a minimum of 3 months to
process (Table 5).




                                           25


                        Table 5. TRC Monthly Container Estimates




Note 1: April through August 2010 numbers are estimated
Note 2: See Appendix A for calculations

Even though the TRC workload will likely increase as the drawdown from Iraq
progresses, the amount of containers the TRC is estimated to receive is still less than the
contract requirement to process 300 containers per week (1,200 per month). Based on
ARCENT estimates, the TRC could receive 238 containers per week (1,022 per month),
which is still 62 containers less than the contract requirement. To prevent further
backlog, DOD needs to ensure compliance with the staffing and performance
requirements in the contract so that materiel is being processed in a timely manner and
reutilized to its maximum potential.

Contract Administration and Monitoring of Contractor
Performance Needs Improvement
The contractor did not have sufficient staffing at the TRC necessary to process the
required number of containers and may not have the staffing necessary to process the
increase in containers as the drawdown progresses. This occurred because the ACO
                                                removed the performance workload
     …the ACO removed the performance           requirement from the contract without
   workload requirement from the contract       proper authorization, written justification,
    without proper authorization, written       or consideration. In addition, Army and
        justification, or consideration.        DCMA officials did not hold the
contractor accountable for complying with the staffing level or performance requirements
in the contract.

Improper Removal of the Performance Workload Requirement
In April 2009, the ACO approved via e-mail the contractor’s request to remove the
performance workload requirement. The contractor’s request stated that Army, DCMA,
and contractor officials agreed to remove the performance workload requirement in
February 2009 and replace it with the performance standards listed in Army


                                                 26

Regulation 710-2. 20 Army Regulation 710-2 required the contractor to process materiel
within 24 hours of receipt. The request also stated that the 24-hour processing
requirement should only be applicable to documented materiel and that, “every effort will
be made to process undocumented items within 48 hours.” Although the ACO approved
the contractor’s request in April 2009, the ACO did not formalize the approval until
January 2010.

On January 13, 2010, the ACO improperly issued a Letter of Technical Direction
(Technical Direction)21 without authorization. When we questioned the ACO on his
authority to remove the performance workload requirement, he stated that the previous
ACO made the actual decision, and that he only issued the Technical Direction to
formally document the decision. In March 2010, the Contracting Officer confirmed that
the ACO did not have the authority to remove the performance requirement or modify the
contract. Removal of the performance workload requirement would require a
modification or change to the contract subject to approval by the Contracting Officer.
Therefore, until the Contracting Officer issued the modification, the contractor should
have been held accountable for meeting the 300-container-per-week performance
workload requirement.

We requested documentation from Army and DCMA officials to justify removing the
performance requirements. Both Army and DCMA officials stated they were unable to
provide written justification because the officials who had previously approved the
removal of the performance requirement had rotated.22 While Army and DCMA officials
  Had a cost analysis been performed,        are always impacted by rotations, the Federal
     the removal of the performance          Acquisition Regulation states that contract
    workload requirement could have          administration officials shall maintain all
   likely resulted in a decrease in cost     documentation supporting the basis for actions
                                             taken pertinent to the contract, including
      or other form of consideration.
                                             justifications, approvals, and cost analyses. In
addition, when we requested documentation to support whether a cost analysis had been
performed, the ACO stated that prior to the issuance of the Technical Direction, he
verbally confirmed with the contractor that the removal of the requirements were at no
cost. Had a cost analysis been performed, the removal of the performance workload
requirement could have likely resulted in a decrease in cost or other form of
consideration.

On March 2, 2010, the Contracting Officer issued a modification to the contract that
officially removed the performance workload requirement. Since the Contracting Officer
did not remove the requirement until March, the Contracting Officer should coordinate
with Army and DCMA officials and determine if the Government should receive
consideration based on the terms and conditions cited in the contract, which states, “if

20
   Army Regulation 710-2 requirements were included in the original contract. 

21
   Technical direction was considered to be an interpretation of the contract by a representative of the 

Contracting Officer, with no authority to change or modify a contract.

22
   The Army Sustainment Brigade in Kuwait rotates on a yearly basis, and DCMA officials rotate from
 

Kuwait on a 6-month basis.
 



                                                     27

any of the services performed do not conform with contract requirements, the
Government may reduce any fee payable under the contract to reflect the reduced value
for the services performed.” In addition to the Contracting Officer increasing
coordination with the Army and DCMA officials, the 1st Theater Sustainment Command
should also become more involved in reviewing contractor proposed changes and
developing requirements to provide continuity because of recurring Army unit and
DCMA officials’ rotations.

Not Holding the Contractor Accountable
Audit reports and weekly and monthly performance reviews showed that Army and
DCMA officials did not hold the contractor accountable for not complying with the
contract staffing level and specific performance requirements.

Audit Reports
As previously discussed in Finding A, we reviewed approximately 170 Army and DCMA
daily audit reports from September 2009 through December 2009. We found that
officials did not hold the contractor accountable for failing to comply with the staffing-
level, 300-container, or 24-hour processing requirements. In some cases, officials
actually marked “N/A” for “Not Applicable” next to the performance standards on the
audit checklist. Corrective action requests for FY 2009 through FY 2010 also showed
that the QAR never issued a report to the contractor regarding noncompliance with the
staffing or performance requirements.

We questioned Army and DCMA officials on why they did not hold the contractor
accountable for not complying with the staffing and performance requirements. Officials
stated that for the staffing requirement, Kuwait law prohibits the contractor from hiring
U.S. contractor personnel and foreign nationals within 90 and 180 days, respectively,
from the end of the contract.23 For the 300-container requirement, officials stated that
because the ACO removed the performance workload requirement, contractor personnel
were no longer required to meet the standard. For the 24-hour processing requirement,
officials did not believe the standard was applicable because Army Regulation 710-2
provides policy for the management of materiel at supply support activities, and they did
not believe the TRC should be considered a typical supply support activity.

Performance Reviews
We attended one weekly and one monthly performance review for the contractor in
December 2009 and January 2010, and we observed that Army and DCMA officials did
not communicate the contractor’s noncompliance with the staffing level or performance
requirements. We also reviewed the contractor’s briefing charts from the weekly
performance reviews from July 2009 through January 2010 and found that contractor
personnel always marked “N/A” in the requirement column for the number of containers
sorted, implying that contractor personnel believed they were not required to meet the
performance workload requirements in the contract. The results of the weekly and

23
 Our site visits occurred in December 2009 and January 2010, and at the time the contract end date was
March 31, 2010.


                                                   28

monthly performance reviews were used to assist in determining the contractor’s bi­
annual award fee. Because Army and DCMA officials did not include the staffing or
performance noncompliance in their performance reviews, we question whether the
issues will be considered by the Award Fee Review Board when determining the
contractor’s award fee. Army and DCMA officials should report the contractor’s
noncompliance with the staffing level and performance requirements to the proper
officials to be considered in the next Award Fee Board Review and decrease the risk of
DOD paying the contractor undue award fees.

Although Army and DCMA officials believed that both the 300-container and 24-hour
processing requirements were not applicable, according to the Contracting Officer, he or
the Procurement Contracting Officer were the only officials with the authority to remove
these requirements. Instead of not requiring the contractor personnel to comply with
requirements, Army and DCMA officials should have coordinated with the contractor to
develop alternate requirements that were applicable, auditable, and measurable, and
coordinate those requirements with the Contracting Officer for consideration as a
modification to the contract. In addition, while we understand the contractor may not be
able to hire additional contractor personnel due to legal restrictions, Army and DCMA
officials should review the current staffing levels and the Army should consider shifting
manpower from locations that are above the staffing requirement to locations that are
deficient. If staffing is still inadequate to process the containers in accordance with the
applicable requirements, Army officials should consider assigning Government personnel
to assist with operations at the TRC.

Summary
With low staffing levels and a lack of contractor accountability, the TRC backlog of
unprocessed containers, which included more than 520 containers of unprocessed
materiel as of March 2010, will continue to increase. If the TRC does not obtain
additional staffing or increase the container processing rate, the TRC could have more
than 2,290 unprocessed containers by August 2010. If this occurs, DOD will not likely
be able to reutilize serviceable materiel in a timely manner and instead, may waste
resources by purchasing the same materiel to support other ongoing contingency
operations. As a result, DOD does not have assurance that the TRC will have the staffing
necessary to reutilize materiel to its maximum potential as the drawdown from Iraq
progresses.

Management Actions Taken to Improve Theater
Redistribution Center Operations
Since our site visits to the TRC, Army officials stated that they have worked closely with
officials from DCMA and the Rock Island Contracting Center to develop effective
performance metrics to be incorporated into the contract. Army officials also stated they
examined the staffing shortfalls at the TRC and recommended that the contractor hire an
additional 55 contractor personnel. Army officials also stated that in order to obtain and




                                            29


maintain accurate contract documentation, they appointed an Army sustainment brigade
official to gather many of the previously missing documents and maintain the contract
files.

Management Comments on the Finding and Our
Response
DCMA Comments
The Commander, DCMA International, generally concurred with the finding. The
Commander stated that DCMA does not have the authority to shift contract staffing
without customer direction, and DCMA does not assign Government personnel to assist
with any contract operations.

The Commander provided additional comments and actions taken since the audit. The
Commander stated that the ACOs have received all applicable training, and they are
expected to understand their limits. However, DCMA officials will place additional
emphasis on the Basic Contingency Operations Training to highlight the ACO’s
limitations when writing letters of technical direction.

Our Response
Based on comments provided by the Commander, DCMA International, we revised the
finding to state that the Army should consider shifting staff from locations that are above
the staffing requirement to locations that are deficient, or consider assigning Government
personnel to assist with operations at the TRC.

Recommendations, Management Comments, and Our
Response
Renumbered Recommendation
As a result of comments from the Commander, DCMA International, we renumbered
Draft Recommendation B.2.a as Recommendation B.1.c. The Commander stated that
DCMA has no responsibility in determining the need to supplement the contractor’s staff
with Government personnel, but they can assist in determining staffing numbers if the
1st Theater Sustainment Command requests their assistance.

B.1. We recommend the Commander, 1st Theater Sustainment Command:

        a. Develop appropriate performance requirements for processing materiel
that are applicable, auditable, and measurable, and coordinate those requirements
with the Contracting Officer for consideration as a modification to the Combat
Support Services Contract-Kuwait.

       b. Review and provide written concurrence for new contract requirements
or contractor proposed changes to the proper contracting official.



                                            30

       c. Determine the staffing required at the Theater Redistribution Center to
process the current and increased number of containers as the drawdown from Iraq
progresses. In addition, if the contractor cannot obtain the required staffing,
consider assigning Government personnel to assist with operations at the Theater
Redistribution Center.

1st Theater Sustainment Command Comments
The Deputy Commanding General, 1st Theater Sustainment Command, provided
comments through the Commander, Third Army/ARCENT that agreed with
Recommendation B.1. The Deputy Commanding General stated that the 1st Theater
Sustainment Command, 1st Sustainment Brigade, and the Procurement Contracting
Officer developed requirements for processing materiel. These performance
requirements were included in the Performance Board Incentive Fee requirements in
June 2010 as part of an extension to the Combat Support Services Contract – Kuwait.
The Deputy Commanding General also stated that 1st Theater Sustainment Command and
the 1st Sustainment Brigade have sent personnel to Rock Island Contracting Center to
participate in meetings to clarify the new performance work statement and discuss
changes with the contracting officials. The Deputy Commanding General further stated
that the 1st Sustainment Brigade has conducted an analysis on the Theater Retrograde,
which was forwarded to the Rock Island Contracting Center for use in articulating the
proper staffing requirements to meet cost, schedule, and performance obligations with the
contractor.

Our Response
The Deputy Commanding General, 1st Theater Sustainment Command comments are
responsive. Subsequent to providing official comments, an ARCENT official sent us an
e-mail stating that the 1st Sustainment Brigade completed their analysis prior to
August 26, 2010. No additional comments are required.

B.2. We recommend the Commander, 1st Theater Sustainment Command and
Commander, Defense Contract Management Agency-Kuwait:

      a. Document noncompliance with contract requirements, specifically the
performance and staffing requirements, and report the noncompliance during
weekly and monthly performance reviews for consideration in the Award Fee Board
Review.

       b. Maintain all documentation supporting the basis for actions taken
pertinent to the contract, including justifications, approvals, and cost analyses in the
contract file.

1st Theater Sustainment Command Comments
The Deputy Commanding General, 1st Theater Sustainment Command, stated that
1st Theater Sustainment Command officials have made improvements in documenting
contractor compliance, such as establishing monthly briefings on contractor performance.
In addition, the 1st Sustainment Brigade issued a memorandum to the DCMA QAR


                                           31


stating that the contractor was not in compliance with the 90 percent staffing requirement.
Further, the Deputy Commanding General stated that they have developed a system to
improve continuity between CORs as they rotate through theater.

Our Response
The Deputy Commanding General, 1st Theater Sustainment Command comments are
responsive. Subsequent to providing official comments, an ARCENT official e-mailed
us stating that the 1st Sustainment Brigade implemented corrective measures, procedures,
and systems prior to August 26, 2010. The ARCENT official also stated that establishing
continuity and maintaining files is an ongoing process. No additional comments are
required.

Defense Contract Management Agency Comments
The Commander, DCMA International, stated that DCMA officials updated the audit
checklists to include surveillance of the contractor’s staffing numbers, and the contractor
currently reports the staffing numbers weekly. The Commander also stated that the
DCMA ACOs maintain all contract documentation electronically.

Our Response
The Commander, DCMA International comments are responsive. We contacted a
DCMA official to obtain clarification on planned actions for the recommendation. The
officials stated that the updated checklists used by the QAR during audits include steps to
monitor, identify, and ensure compliance with staffing and performance requirements. If
the QAR identifies deficiencies during the audits, the QAR will write a corrective action
request. The corrective action requests are presented during the Award Fee Board
Reviews. No additional comments are required.

 B.3. We recommend the Executive Director, Rock Island Contracting Center, re­
evaluate the use and effectiveness of Letters of Technical Direction. If the Executive
Director determines that the Administrative Contracting Officer will continue to
issue Letters of Technical Direction, the Director should coordinate with the
Commander, Defense Contract Management Agency-Kuwait, and put in place:

       a. Standards that clearly define the requirements and limitations of the
Administrative Contracting Officer for issuing Letters of Technical Direction and
the supporting documentation required, such as justifications, approvals, and cost
analyses.

       b. An internal review process to ensure appropriateness of the Letters of
Technical Direction and concurrence from the Commanders of the 1st Theater
Sustainment Command and Defense Contract Management Agency-Kuwait.

Rock Island Contracting Center Comments
The Executive Deputy to the Commanding General, AMC and the Executive Director,
U.S. Army Contracting Command, endorsed and forwarded comments for the Acting



                                            32


Executive Director, Rock Island Contracting Center. The Acting Executive Director
agreed and stated that they are developing a Contract Administration Plan that provides
guidance to the ACO on issuing letters of technical direction and addresses the internal
process for executing the letters of technical direction. The expected completion of the
plan is September 30, 2010.

Our Response
The Acting Executive Director, Rock Island Contracting Center comments are responsive
and no additional comments are required.




                                            33


Appendix A. Scope and Methodology
We conducted this performance audit from December 2009 through June 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
The evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objectives.

To accomplish our objectives, we coordinated with or interviewed officials from:

    •   AMC
    •   Army Deputy Chief of Staff for Logistics (G-4)
    •   USCENTCOM
    •   ARCENT
    •   1st Theater Sustainment Command
    •   593rd Army Sustainment Brigade
    •   180th Transportation Battalion
    •   U.S. Army Support Group-Kuwait
    •   Rock Island Contracting Center
    •   DCMA-Kuwait
    •   Responsible Reset Task Force
    •   TACOM Life Cycle Management Command
    •   Communications-Electronics Command
    •   402nd Army Field Support Brigade
    •   Defense Logistics Agency
    •   DRMO-Kuwait
    •   Defense Distribution Depot Kuwait-Southwest Asia

We obtained and reviewed ARCENT container drawdown estimates and Federal, DOD,
and Army regulations, directives, and instructions specific to safeguarding classified and
controlled materiel. In addition, we reviewed applicable sections of the Federal
Acquisition Regulation and Defense Federal Acquisition Regulation, as well as Army
Supply Discipline, accountability procedures, and contractor staffing levels. We also
reviewed contract requirements, standard operating procedures, contractor internal work
instructions, and storage and handling procedures for hazardous materiel specific to the
Theater Retrograde. Additionally, we observed the TRC, Warehouse, and Bulk Yard
receiving, inspecting, sorting, classifying, and storing procedures, and using a judgment
sample, conducted an inventory of controlled materiel at each location.

We coordinated with the Army Audit Agency personnel who were conducting concurrent
audits that involved reviewing Theater Retrograde operations.




                                           34


Use of Computer-Processed Data
We conducted an assessment of computer-processed data used to maintain a record of
containers received, processed, and waiting to be processed at the TRC. Specifically, we
obtained and reviewed daily container production reports generated in Excel from
September 1, 2009, through March 31, 2010, provided by Army officials. The
spreadsheet depicted the number of containers the contractor reported that the TRC
received and processed each day. We relied on ARCENT container estimates, as well as
the number of containers the contractor reported as received and processed. To
determine the backlog of unprocessed containers, we subtracted the number processed
from the number received.

We also conducted an assessment of computer-processed data generated by the SARSS.
Combat Support Associate contractor personnel generated the total number of sensitive
materiel on hand at the TRC, Warehouse, and Bulk Yard and, using those numbers, we
conducted a judgment inventory of the controlled materiel at each location. Specifically,
we sampled materiel and physically counted the amount of materiel and verified the
number in SARSS. If the number we counted did not match the number in the system,
we conducted a second and third count. If the inventory on hand still did not meet the
inventory after the third count, contractor personnel completed an inventory adjustment
report.

We briefed our methodology and data analysis results with Army and DCMA officials to
ensure the report was factually accurate. As a result, the computer-processed data were
sufficiently reliable for our purposes.

Use of Technical Assistance
Quantitative Methods and Analysis Directorate (QMAD) personnel reviewed TRC daily
container production reports to determine the number of containers received, processed,
and waiting to be processed from September 2009 through March 2010. QMAD
personnel also reviewed container estimation tables that depicted the number of
containers the TRC could receive from December 2009 through August 2010. The
objective of their review was to calculate the container processing rate and using
ARCENT estimates, determine what the backlog of unprocessed containers would be if
the TRC contractor personnel continued to process containers at that same rate.

Using ARCENT’s estimates of containers leaving Iraq and TRC daily production reports
from December 2009 through March 2010, QMAD personnel calculated the percentage
of containers shipped from Iraq to the TRC and the average number of containers the
TRC contractor personnel processed per month. ARCENT officials estimated that
approximately 2,500 containers would leave Iraq each month from December 2009
through March 2010, totaling 10,000 containers. Using TRC daily production reports,
QMAD personnel calculated that the TRC received 2,924 containers during these 4
months, or an average of approximately 730 containers per month. QMAD personnel
determined that the TRC received 29.2 percent of the containers leaving Iraq, which is
730 containers divided by 2,500 containers.



                                           35

QMAD personnel used the rate of 29.2 percent to determine the amount of containers that
the TRC is estimated to receive each month from April 2010 through August 2010.
ARCENT officials estimated that approximately 3,500 containers per month will be
transported from Iraq during this period. Therefore, if trends continue, QMAD personnel
estimated that the TRC could receive 1,022 containers per month, or 29.2 percent of the
3,500 containers.

We calculated and QMAD personnel verified that from September 2009 through
March 2010, TRC contractor personnel sorted a total of 4,674 containers, or an average
of approximately 668 containers per month. QMAD personnel used the 668 containers
sorted per month as the standard to estimate future performance at the TRC. QMAD
personnel estimated that from April 2010 through August 2010, the TRC could receive
1,022 containers and sort 668 containers per month, increasing the backlog of
unprocessed containers by 354 containers each month.

QMAD personnel calculated the monthly container backlog by taking the prior month’s
ending container backlog amount, adding the new month’s amount of containers
received, and subtracting the number of containers sorted. QMAD personnel repeated
this process with actual data listed in the daily production reports from September 2009
through March 2010. Then, to calculate the backlog for April 2009 through
August 2010, QMAD personnel estimated that the backlog would increase by
354 containers each month and result in 2,293 unprocessed containers at the TRC as of
August 2010.




                                           36


Appendix B. Prior Audit Coverage
During the last 5 years, the Government Accountability Office (GAO), the DOD IG, and
the Army have issued 13 reports on equipment retrograde and the drawdown of
U.S. Forces from Iraq. Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov. Unrestricted DOD IG reports can be accessed at
http://www.dodig.mil/audit/reports. Unrestricted Army reports can be accessed from .mil
and gao.gov domains over the Internet at https://www.aaa.army.mil/.

In addition to the audit reports listed below, subsequent to our first site visit to the
Theater Retrograde, the Commander, 1st Theater Sustainment Command, initiated an
investigation on materiel processing procedures in Iraq and Kuwait. The investigation
found that TRC contractor personnel were sending new, unused, and serviceable materiel
to the Camp Arifjan DRMO for reutilization, destruction, or sale without direct monetary
benefit to the U.S. Government. After we completed fieldwork in Kuwait, we briefed
senior AMC, ARCENT, and 1st Theater Sustainment Command officials on the potential
findings and applicable recommendations, some of which they included in the
investigation report.

GAO
GAO Report No. GAO-10-376, “Operation Iraqi Freedom, Actions Needed to Facilitate
the Efficient Drawdown of U.S. Forces and Equipment from Iraq,” April 9, 2010

GAO Report No. GAO-10-551T, “Continued Actions Needed by DOD to Improve and
Institutionalize Contractor Support in Contingency Operations,” March 17, 2010

GAO Report No. GAO-10-179, “Operation Iraqi Freedom, Preliminary Observations on
DOD Planning for the Drawdown of U.S. Forces from Iraq,” November 2, 2009

GAO Report No. GAO-08-930, “Operation Iraqi Freedom, Actions Needed to Enhance
DOD Planning for Reposturing of U.S. Forces from Iraq,” September 10, 2008

GAO Report No. GAO-08316R, “The Army Needs to Implement an Effective
Management and Oversight Plan for the Equipment Maintenance Contract in Kuwait,”
January 22, 2008

GAO Report No. GAO-07-439T, “Preliminary Observations on the Army’s
Implementation of its Equipment Reset Strategies,” January 31, 2007

GAO Report No. GAO-06-943, “DoD Excess Property: Control Breakdowns Present
Significant Security Risk and Continuing Waste and Inefficiency,” July 25, 2006

GAO Report No. GAO-06-604T, “Defense Logistics: Preliminary Observations on
Equipment Reset Challenges and Issues for the Army and Marine Corps,” March 30,
2006




                                           37


GAO Report No. GAO-05-277, “DoD Excess Property: Management Control
Breakdowns Result in Substantial Waste and Inefficiency,” May 13, 2005

DOD IG
DOD IG Report No. D-2010-60, “Drawdown and Reset of Equipment in Iraq-Operation
Clean Sweep,” June 11, 2010

DOD IG Report No. D-2010-027, “Army's Management of the Operations and Support
Phase of the Acquisition Process for Body Armor,” December 8, 2009

Army
Army Audit Agency Report No. A-2010-0022-ALL, “Audit of Retrograde Operations
Southwest Asia, Multi-Class Retrograde, Camp Arifjan, Kuwait,” December 7, 2009

Army Audit Agency Report No. A-2006-0083-ALL, “Audit of Retrograde Operations,
Audit of Logistics Civil Augmentation Program Operations in Support of Operation Iraqi
Freedom,” March 21, 2006




                                          38


Appendix C. Inadequate Alternate
Contracting Officer’s Representative Audits
We reviewed approximately 170 alternate COR daily audit reports issued from
September 2009 through December 2009. We compared the results of the audits to the
audit standardized checklists to determine if the alternate CORs verified compliance with
each requirement on the checklist. We found in numerous cases that the contract
requirement in the checklist or subject areas being audited were not sufficiently verified
or examined, the intent of the audit was not met, or the requirements in the checklist were
not verified. In the three examples listed below, the alternate CORs’ audit results are
taken verbatim from the reports. For examples 1 and 2, we redacted the personal names
that were referenced in the audit results.

Example 1 shows two different alternate COR audits on the same section of the contract,
one in September 2009 and the other in December 2009. Neither audit verified the
contract requirement listed in the audit checklist.

Example 1
                              Audit Checklist Requirement
 1. Does the contractor provide flexibility to allow increased manpower as the
 workload/volume increases?
 2. Does the contractor provide trained personnel to perform technical tasks associated
 with U.S. Army stock control and warehouse management procedures?
 3. Does the contractor allow only personnel with appropriate clearances to handle
 sensitive/classified items in accordance with AR 380-67, AR 190-11, and the basic
 contract?
                   Alternate COR Audit Results – September 8, 2009
 On 08 September 2009 at 1330, the ACOR inquired to the section supervisor of
 shipping,                     , about how many employees are assigned and how many
 are present. She knew immediately that there are 17 eastern workers assigned and
 13 were present and four were off.                also stated that her workers are always
 on an assigned task. Therefore, the contractor is IAW the SOW that states that “The
 contractor shall provide trained personnel and supervisors to perform technical tasks
 associated with US Army stock control and warehouse management procedures.”
                   Alternate COR Audit Results – December 10, 2009
 On 10 December 2009 at 2245, the ACOR inquired to                    , nighttime
 warehouse supervisor for W7A, about personnel.                  informed ACOR that out
 of 69 assigned easterners and 6 assigned westerners, there were 49 easterners and
 3 westerners present.              informed the ACOR that because of some employees
 being on a “S-3” status that those employees weren’t allowed to have overtime and
 need to be given more days off. Therefore, contractor is acting IAW the SOW that
 states “The contractor shall provide contract flexibility to allow increased manpower
 as the workload / volume increases.”



                                            39 

Example 2 depicts two alternate COR audits performed on separate days on the same
section of the contract. The audit results reported by the alternate COR do not
sufficiently verify that the alternate COR answered the four objectives for the audit or
that the contractor met the contract requirements.

Example 2
                              Audit Checklist Requirement
 1. Does the contractor conduct retrograde sort operations in conjunction with the
 overall retrograde yard operation?
 2. Does the contractor download all received items?
 3. Does the contractor check every item and/or container for unit turn-in
 documentation; sealed depot packed items need not be opened?
 4. Items identified as serviceable will be shipped to the serviceable Warehouse for
 processing and items identified as unserviceable will remain at the unserviceable TRC
 for further processing.
                  Alternate COR Audit Results – September 14, 2009
 On 14 Sept 09 at 2210hrs, the ACOR visited the Download and Sort yard. The ACOR
 found about fifty (50) Handle, Mattock Pick NSN 2540-01-557-5830 which had a
 kickback form from QSU for reclassification, with a yellow tag Code A. The ACOR
 found items were serviceable. The ACOR researched the items thoroughly in
 FEDLOG. The SOW could not have been followed to justify rejection at the
 warehouse.
                    Alternate COR Audit Results – October 8, 2009
 On 08 Oct 2009, the ACOR visited the ALOC area. TRC Tech Inspectors
        and                directed the attention of the ACOR to items returned from
 W7A/ QSU. The ACOR observed two (2) original packaged and banded boxes
 containing Transfer Transmissions NSN 2520-01-556-4710 w/ MRO addressed to
 W7A W91QSU from W91OM2. On one of the boxes was a sheet of paper stating,
 “Need clean and drain certificate”. These items come from the manufacturer
 containing a preservative to protect the new and/or repaired item from degrading. The
 preservative is removed at the maintenance level shop. Both items are listed in
 FEDLOG unit issue at the cost of $20,933.98 each.

Example 3 shows two audits on different days completed by the same alternate COR. It
appears that the alternate COR may not have performed an audit on the subject area on
December 16, 2009, but rather copied the same information from the prior October 24,
2009, audit report and changed the date. In addition, neither audit thoroughly addressed
the requirements.




                                            40 

Example 3
                              Audit Checklist Requirement
 1. Does the contractor determine if there is a NSN or part number for the items?
 2. Does the contractor use FEDLOG to determine the Source of Supply, unit cost,
 correct NSN, nomenclature, class of supply, and any other information to process
 items into SARSS?
 3. Does the contractor ensure that turn-in of all serviceable electrical/electronic
 components, motors, and generators; not in their original packing receive a technical
 inspection with a Department of the Army Form 2407 and a yellow serviceable tag
 (DD Form 1574)?
 4. Does the contractor ensure all property book items, both serviceable and
 unserviceable, receive technical inspection with appropriate paperwork and tags?
                    Alternate COR Audit Results – October 24, 2009
 On Oct. 24 2009 at 2030 ACOR conducted an audit on Undocumented Items. ACOR
 went to Receiving Section where items are placed that have no documents attached.
 When receiving parts the Receiving Section looks for the paperwork and checks the
 actual part to see if they match. If the part has no paper with it, but has NSN or Part
 Number on it the Receiving Section then goes in the SARRS system selection menu
 and choose ‘‘ACT ’’. This selection will identify the part. If the part can be identified
 the receiving section will then create the paperwork. If the part cannot be identified it
 is kicked back to the sender. Therefore the contractor is in compliance with the SOW
 which states ‘‘The contractor shall determine if there is a NSN or part number for the
 items. The contractor shall use FEDLOG to determine the SOURCE OF SUPPLY,
 unit cost, correct NSN, nomenclature, class supply and any other information to
 process items into SARSS.’’

                   Alternate COR Audit Results – December 16, 2009
 On DEC 16, 2009 at 1330 ACOR conducted an audit on Undocumented Items. ACOR
 went to receiving section where items are placed that have no documents attached.
 When receiving parts the receiving section looks for the paperwork and checks the
 actual part to see if they match. If the part has no paper with it, but has NSN or Part
 Number on it the receiving section then goes in the SARRS system selection menu
 and choose ‘‘ACT ’’. This selection will identify the part. If the part can be identified
 the receiving section will then create the paperwork. If the part cannot be identified it
 is kicked back to the sender. Therefore the contractor is in compliance with the SOW
 which states ‘‘The contractor shall determine if there is a NSN or part number for the
 items. The contractor shall use FEDLOG to determine the SOURCE OF SUPPLY,
 unit cost, correct NSN, nomenclature, class supply and any other information to
 process items into SARSS.’’




                                            41 

Appendix D. Other Matters of Interest—
Inadequate Shipment of Materiel from Iraq to
Kuwait
We observed the effects of improper container shipping procedures from Iraq supply
support activities. The pervasiveness of this problem is further evidenced by both TRC
military and contractor officials, who confirmed that the overwhelming majority of
containers received at the Theater Retrograde are either inadequately packed, lacking
proper documentation, or contain scrap materiel and trash.

Improper Packing and Shipping of Containers
While at the TRC, we found that the majority of containers received were not adequately
packed and did not contain proper documentation of contents. We observed containers
that were not properly blocked and braced and contained scattered equipment. The poor
packaging of these containers is not only detrimental to expeditious processing of
materiel through the TRC, but it also poses a safety hazard to military and contractor
personnel, as we also observed containers that held hazardous materiel without
appropriate markings on the outside of containers. Furthermore, military and contractor
personnel stated that the majority of containers arrived with little to no documentation
about the contents of the container.

The figures below illustrate some of the containers received at the TRC from Iraq supply
support activities, which were not properly packed, blocked, or braced. Figure 3
illustrates heavy equipment that had fallen on top of three gas cylinders, which according
to contractor officials, could have exploded from the impact. A second example of a
container that officials in Iraq did not properly pack, block, and brace is illustrated in
Figure 4.

          Figure 3. Safety Hazard                     Figure 4. Fallen Materiel




                                            42


In addition, not only is the improper shipping of materiel a safety hazard, but there is a
greater likelihood that the materiel being shipped will arrive damaged. For example,
Figure 5 illustrates boxes of brake pads that have fallen beside fragile items that could
have been broken by the collapsing materiel.

                   Figure 5. Collapsing Materiel with Fragile Items




An additional potential safety hazard existed when multiple containers arrived at the TRC
on flatbed trucks from the Al Asad supply support activity. Figures 6 and 7 illustrate the
containers leaking a glue-like potentially hazardous substance (circled in yellow) from
the transportation truck.

       Figure 6. Leaking Substance 1                Figure 7. Leaking Substance 2




Proper shipping to include markings, documentation, and the blocking and bracing of
containers could avoid further waste, provide safer working conditions, and expedite the
processing of equipment.

Scrap and Trash Materiel
Military and contractor personnel at the TRC stated that containers being shipped from
Iraq frequently include scrap materiel or trash, which contractor personnel expend a
considerable amount of time sorting. In most cases, the scrap materiel and trash could


                                             43


have been dispositioned in Iraq and not transported by convoys to Kuwait, potentially
endangering the lives of soldiers. Figure 8 illustrates a container of trash that contractor
personnel received at the TRC.

                  Figure 8. Trash in a Container Shipped from Iraq




Based in part on our observations, a DOD IG audit team in Iraq announced Project
No. D2010-D000JB-0219 on May 7, 2010. The audit objective was to determine whether
DOD was effectively managing operations at the supply support activities and central
receiving and shipping points in Iraq.




                                             44


U.S. Army Central and 1st Theater Sustainment Command
Comments




                                                    OI:.PART,\1T.'-' Of: mE              AR\n~
                                                    1 ~! "1 "1   u ... ,u· YIIO\I\I\ 'll t nllAIDq
                                                                      \ro   \1 !lVJ{'"




                                                                                                                   26;\ t ' (; 20lU


      ;\ 11 \.10 R.-\ 1-.0I \ 1 I1lR l l Cmnmandcr. Third               Aml) / lI~ARCL"I .       A PO AE OQ1M

      ~l r\1 0RA     :DVVI FOR D-:partrnc:nt of Ucl~n~.                     om!;C ofthc: lnspc:ctor Dc     eral. 4 0 Ann)
      ~iJ\ ~   Dn\"c. t\rlingltlll. VA 22~Ol·-I7(l4

      Sl lHJECT: Draft Rcpurt: DOD Need:- tn Improve M:l:lilSt'mcnt and O\ crsight uf'Opt·r..tliuns at
      tIlt" TJw3tn RClrogradco('ump A riljan. Klm,ai l ( Proj C'(:t No, rnO ] O·DOOOJ.'-\·OOSS .OOO ),




                                                                         I_
      I,   Th~m ll. }I.lU   fnr the ch:mc.,: 10   n:\'k\\   tIlt" draft reparl. ( 'ommcnh frum the: command arC'
      I."nclo~'t! .


      2, Thr;: puint Ill' conl;u.::t fo r thl:;: memorandum i:s _                               , \ .• .\ SC S upptm   (}r"'.. ralion~
      lllTIcc r. at                             or • • • • • •


                                                  Click to add JPEG file
                                                                            NI C~t&S
                                                                            Ori.gn.dicr (jenera!. l :S A nn~
                                                                            P erm) Commanding (j(.·n::rnl




                                                                                             45


 .: MI".~r~ I : I" 'r hul rf :\UPfllltl Cl1ll1l11lnrl (fSC ) C .."",nfll!' In nUnll; Ih .\fl 'trp nrl : DOn " .. rd< 1(1 11111,rli\'t
 'hlla:rn,rnl '",,) I h f"l)!h l llru,wr:.ti'IM, ~ , .ho Tl'UI~t 1I.,It"l!r-,trl .... f '~ml' " rlfJ~" , 1\0 .... 11 (I',(ljft! " ,~ 1)!l) ln.
 I)Hlltllo\ ,~!'.OOIlI,



                                                       DOOle DRA FT REPO RT

           DOD Need s to Imp r ove Manage m ent and Oversight of Operatlons .. t t h e
                          TheatC!r Rctrogri'ldc - c am p ArifJan t Kuwait
                                  ( D2010-0000JA-OOS5 ,OOO)

                                                            COMMENTS
                                                       TO THE DRAFT REPORT

RECOMMENDATION A1 ; We rc.commcmd tt,c COmlTli'ltldcr. lSt Theater Sustainment
Command (TSC) , coordlflilti> wltl1 offirlotfS from the u.s, Ar my ~'iltcrl('j CommMd lind the
Army Oel)uty Chief of St(l(( fOr Logistics (G04) to develop buslnc-s<; rllle s so lhilt no n~tMdard
equipment at Ihe rhl!ater Rcd'!it rlbutlon (t'nl c r ( TRc:) 15 reutlllud to 11 5 1l'tt)xlmuM
c.:lp.:Ibilily. l'h~:'ie rul e!> should provide guidance (or the ilmounl of time a contral':lQf should
spend r~searchln9 c;pl!clfiC It ~m<; b",sed on do 11M va lue, cr itlCill or hHurc net;d , or other
r equirement; and Cl point of contact t o as~~s t in Obtaining disposition inslrucHons,

RESPONSE: Conwr with comment. FilS! TSC .,,,d its (jurrcnt subordinate commilnd, 1"'
S\J~tajnment Bngilde (it.! SBDE). h;:ave worl:ed with Army MlItcrlel Com.llilr"d (A/IIC), US
Army Centr.)1 (USARCENT) Dnputy Chl ef of SIL'ff rOt logj~tlcs (G4), Rocl.: Island Cl'lr\tt~ctj n9
COMmMd (RICC) Dnd Defense l og istIcs Agency (OlA) to develop Dnd implement business;
rules to Improve non·standllrd equIpment usage/dIsposition at the 111eater OlstrJl)utlon
C('ntet (TBC). Inlprovements lncllldc IrllpJementlng a l eUer of T('chnJc<l1 Otrec.tlon (LOTD)
thaI spedfics r esearch time' perlnels to thc cOlltracl or; the In(orpomUon of the AMC
InsliltlaUon supply n.cp r~s cn t .'tj v~ (ISR) ,Jnd Lire Cycle t-, .."l.)ge:ment CommMds (Lrr.ICs)
into th~ Idcntlficl\!lon and re search processe.. ; I)nd the irnprovemenl 01 ov!.!rall (ollll'actor
overslgllt through Iralned Contracting OfflCN ReprC''fII1I<ltlVes (COR.s) . Businesl>rvle5.
processes. lind prm:edures h<lvc airendy bl'!cn lmplemcrllcd to enosurc bette r opt'lillloni'l1
oversight whlc.h Is crltl(allO 8dd re~S"lng thl! s('curity C(lnwms reported In the audit. We <Irc
. 150 better codlryln9 the bu<:if'lCss rules a"d process Improvement s ill the contrilcl
Pl'!rf(lrmance "Iork Sta tem ent (PVJS) that Is III nnil! 51,, 111119 , The c(\ltlr.1Ct competition
proc.esS witl begIn soon. pI TSC i'lnd l'~ SBOE ., re partklp<1!lng In the process,

    At I hI.'!' stl'31Cglc level. \'Jo've continued 10 work with key <;tlli:chQlO.:-rs to Improve
bvsmc::."!. rules r('gvrding the dl:,po:; ,tlon pIOCCS~. Army Mi\ terl<!1 Commnnd. (or cx.unplc,
ha<: !!'stabtlshed a coromand and control element catled the Responsible Resel T;:)d: Force
(R2TF) . This p,1p,rnent not only tf.:lcks aM ens\ltes t h~' expedit ious movement 01 property In
sllpport of Army Reset, but hilS provide>d procos!> m"p~. b .. "rncst rull'S ar"d technlci/t
p.xpcrtlsc In support of motc-rlcl dIstribution (Includln9 Mand,JrCl Dnd n()n "!JtandO'lrd
equipment) jn support or th e! thcotcr.


BECQMMENPATIQN A2: WC recommend the Commi'll1d<!r, 1st Theat!:!T Sustainment
Commnnd, and the Comml!llldor, Dafensc Contract ,.,an.ngcl'!'let''\t Agcnr,y-Kuwalt:

    n,     Upd3C(t the audit sta ndard ized checklLc;ts for the Contracting Orfh:N'-S Rcprcsentollivc
          ;.nd Qu" Ulv Assuranc(' Aeprest'ntO'ltlve to cnS\lre the\' are able' to vt'rlfy whetller
          C'ontfltctor p~r'iOl"lnel ('olllplie(t with contr<)('c reQUlrement <; ,'}I\d applicable Fcde rn'j
          DOD, MU Army rC9111."l tlon~.


                                                                                                                                        I' .:,:,' 11'("




                                                                                                      46


 .:nrlq<IIH I : ," n '(':Ilt r SUP Plln ( 'lInl n'~ n lIITSn ( ·lInln...Uh t il UOIHr.llrnh RtllOr' : linn ~nd~ In h UllrtlH
 \1!!",1C~"If'" ;\n,I ()"r, .I~t" " f np, ull,," , :lll hr r hnll"r 11'lr l)jl r~ tll'> ('!UI\ I\ <' rllj,n , "-u"ah Ir'n'I'" "0. !Ullin.
 l' I'ItHU .\ .flU~.(.\,I!I(!).




        b.      Oevelop prot:edures thilt ensure rJeflcit'nclt's Id('nlllled by the CClnlractill9 Off"er's
               Rermr;(lntatlvt:', A l t~fI1i1t e COOI",c1 1"9 Offjcer'~ Repre~entlltlve , nnd Qlloi lly
               Assurance Represen tative lIrC msolvec:l In a timely m ~f"I ner based on the s~vrrl tv of
               the deficlcmcy.

 RE SPONSE: Concur wjth comment . Slgnlncant Improve lllents have occurred In u,,~ t'trea of
 COR and QAR !;lan(1i1rdized checklists sincd thl! DODlG tCLl m conducted this audit In Itial
 updates lVere completed lCW Dl'fense COnlrl'Cllng Hon.lgcment Agenc.y (OCMA) In May
 2010. We will continue to rcfmlt t"ese documcIlts as n(:l: ~$S1Hy In or(1er to provide releVitfll
 contrilctor per rormtl ncc feedback regard ing CO'i t , schcdulp and pe rf n rrn~ncQ.

    In terms of procedures, 1'\ SROf: and 1>1 TSC have Implementerl proredums to Improve
 com lnunlcation be t\'lee n lil(> contractor .'I lld those (rpft':'>c ntlng tn~ Vii Government nnd
 providing contr~r.1 ovetSlghL Process i mprovements Indude:
            Oaily ~ COR reviews aUdit checklist!>. Dcf.c1en/::ie!> i'I(1:' brought to the i." mcdiilte
            <l ttcnllOn of the QUlliity Assurance Represen tative (QAR). Corrective A(lion
            Report:; (CARs ) erc now used ilS a formal mC<lm, to docllmC'nt aCt/o'lS,
            Weekly - the COR and QAR rn~ct to formally discuss tont rac t cost, sch edule <l nd
            performance. Ouring these sessions, prev iously filed CA~<;. are (~v ie\\'ect for
           cor r ective ,lI(tions; and pro blemr. 3re addre ... s~ d before they become neg ,:,tlvc
            trend.. ;'Ind Impact Ihe missIon.
                                               Click to add JPEG file
           Monthly ~ The CDRs for th~ TRC and WetrChOu5e activities brIef the ] y. SGDE
           CO"" l'(\nn(l er reqardlng contract per formonc(' trends lind on· goIng CARs. 1" TSC
           and DC:·1A part icipate In thest? 'ies.stons as well .


RECOMMENDATION 81: We rC!comrn~lld the Comman()c r. l si Tile<.lt£!'( Sust:llnment
Command:

      iI .    Devt'lop nppro"riatc O(:ff(lrma nCe r~q u l rc ment s fa r proces5ing rn<lteriel lhi' t arc
             npplic£lble, audlt,) ble, ;111:1 measurnble, and coordinilt<! U.,o s~ rC!(JLllrem cntr; wllh rhl.':
             Cont r.lctln9 Officer for conslderatlon;'l'i n mod ification to the COMbAt Support
             :=;crvl r.r. ~ Contmet-Kuwa lt.


      b.      Revlel'J i'nd provide written concurrence ror ne w contmct rCQl-l! reOlent~. or conlraCtOr
             prap05t'(1 chungI''' to the proper contract ing otoclal .

RESPONSE; Concur with comment. As flMl of ttle ExtenSiOn 2 to 1M Con1bat Supporl
SE'fvlccs Contrncr - KuwaI t, 1" Sl\OE, 1 ~1 TSC !nd the PCO developed requiremcnts for
processing matNiel and SPCClflf!! d these per formance <;Iandords In tlla Performance Board
Incentive Fee rC tl\lif('mC!nt!: In June 2010 . Tile met rics are $c<1II'(1 10 e nl<lI'lnCf Itt''1 1 rcw&rrls
proccs51 ng pcrfMm."lrlCe . Additionally, thc ~c performance reQuirements hll v~ hew\ Includcd
In the pending PWS. Undcr the ne w PWS , lhe conl rac tor wilt be requ ired to properly
prOC1! 5t:; 800 h '/Cr'lly-foot cOptlliocrs and 500 USAF 463l PfllIC!ts monthly.

     In tNms of veH lng contract requlrt'mt'nt s, Rock Islanti Contfilr,Ullg COfTlmilnd (R ICC)
c/r<:u lated proposed <: hi'ln ge<; tn the PWS In May 2010 ~n d ~ t,) f(ed the document <l9:.ln In
August 2010. Both 1" SaOE .:md 1~ TSC hLlv(;' sent per ~o nn e l to Rnck Island in order to
pnrtlclputc jn s(,!5~lons to betlf: r clilflfy tho PVlS lind dl!>cuss changes wIth contrilcUng




                                                                                                  47


 1:",'I...tu rr I, I" Th r)h't "II"I'IUI" C""llIma nrl ITS!', C'd/lI lllfnf) 10 IlOUI' ; I)un Hfl,n,..: /lOll ""n,l, ,,, I ml'run
 "~nll~tm ~"t " .. ,I f~ " ... Ieln OrOpfrMI .. n~lIt Ih. T1,...:m'r Rl'l r'l,l:r.ulr" ".mp \ rlfj~", I.:1ll';lIIIf'r"j,..;1 "'1- U~JJ 111-
 1.11("" ,\ ·IIO~::,I)cIO},


 ofrrdals. Antic.lp.:Ite completing the PWS review NLT 1 !;ep! 2010,

                                                                                                                                                    Renumbered
 RECOMMENPATION 82 ; We recommend the Comrni'lndl'r, 1st Thl!tlter Sust.Jlnm('nt
 C.om mund und Commilndcr, Defense Contra(t H()nagcmcnt Agency-Kuwait:                                                                              Recommendation
                                                                                                                                                    B.2.a as
      o.      Oete rmlne the sta((Jng required at the Theater Redistri bution Ccntef to proccss the
             curmnt lind ,,,(rcaser! number of Containers as the drawdown fro", Iraq progresse!;.                                                   Recommendation
             In addition. If the contracfor canno t obtaIn the requlrod staffing, ,onl'f(ter assig ning                                             B.1.c
             Government personnel to '}s::;:lst with Opt rlltlOns (It the Thea t er Redistribution Center.

      b,      Document noncom pliance with contr,ClCl reqUirement!>, speCifica lly the pcrfol'mancc
            and staHing reQulrcments, ond report the noncompliance during weekly anci monthly
             perfonn.:1nce reviews for cOf1sld C!r:'ltion In the Award fee Boord Review.

      c,     r-htint.1Tn ntl documentMlo" support ing the baO:; ls fOr lIctlon; t <lkt"., Pf"t,nent to the
            (ontmct, IncludIng Justifications, approvals, and toc;t analy!'es In the contrac t r'le.

RESPONSE: Concur with comment. the 1" SSOE ~M eonduct¢d analysis on the operation
and has determim:d tht! minimum conditions needed to SlJpport til .... TRC, AU In formation
hilS been fonvarded to lIll! pca at RICC for lisa In 3rticuliltlng proper m3nning reQuirement'S
lo meel cost. schedule and perft'.lrmll nce obllglltlons with th~ contrilctor. As previoLl~ly
stared. I fI SBOE and 1" TSC are Involved In revisIng the new PWS ilnd 1·: SBOE will
partlelpate In the u p roming Technical Evaluation Source Se!ectlon B~1rd to provide subject
mailer expertise r\!gardlng opera llonlll r('Qulmments pa rtlwl<lrly i n Ihe areas of securilY and
workloM/stufflng,

      The com mllnd continues t o make Improvement!'. In terms of doclJmt!ntlng conliactor
noncompliance ",a h n:'Qulrenlcnls" A recent ~)(a mple (rom 1*: SHOE addressed tha
contr;lctor prOViding les'$" than 90% or the workforce as spc:-clficd In thc eontmc1 (less th{ln
80% In lerms            0'
                      IIf; manning fOr Westc:-rncm; with SECRET !'ccurlty cleilrances). Ttlf~ 1s-I
SBOf COR documented the problem on 8 memorandum which was tlllln sent 10 th~ OGIA
QAR fot acUon. AdrlltlonaHy, the 1" SBOE Commandm 11a$ t"stabU" hed a syst~O\ where he
re c.<,lvcs btlefs ' rom CDRs rcgMdlng contractor periormance on a monthly basts.

       TJ':C l ~ SeD!: reports th.,1t the COR and ACO have established r.onllnu lty and hist or ical
flle.o:; reg arding this contr.,ct. Records will Irano:;fer 10 the new COR <'IS part of the unit
tr<Jnsff,! " of (Ioulllorily process, Addlrlonally, 1" TSC has developed nnd Il mplacod systt!lO$ to
Improve cOf'lt!nully between CORs as they rotl1tc throuqh thea t er,




                                                                                                                                    " ,\t!.'j"f.t




                                                                                                    48


Entl"'''rf I : ' " " hul"r S"" llilrl ( 'III\'Il'~l!tll rsq ('1\1'IH"~~h IDnOIll': "I ;\n Itt lKln : nOD XUd~I(l I IIIW(l " r
1II:1Ul!tIllNII nnol f) "('tllell l ur Ojtt'lIl1"n\ ~I III~ Thnltt lI'I"" lr,., l o:-r·~fII ll ,\r llj:.... ""w:d, ,rrllJff l "U. Oltlllt.
IIOIlO"' · OO~~ ,tlOOl.




                                        GENER AL COt-1NENTS ON THE REPORT

     The 1" TSC In coordlnntlo'1 with 110: S80E, RiCe and 001A hnve made il concerted ('fton
 towards f'Cctl fy lng the ' Inding s summarized In th is audit and the TRC operation.
 OperatIonally, the TRC Is plnylng an instrument;11 rore In the Responsible DrawdoVlIl of ' raQ
 while slmult.Jncously prOlJldlng 0 means to brIng Army prop erly b;:l(k·to·record !'iO that It
 may be redlstnbuted to AflJhanlstan or flIl other prlorl~le5 In support of DOD. Seveml of the
finding!'> of the DOOIG team are attributable the unlQu enc~s or this mission (Inri the In itial
lack of cleM regu latory guid,lnc!! and Supporting bUSiness processes - oU of which have
Improved slgnlfltaf\tly. The bt'lse con t ract Itself. ilward~d in 1999. tould not h ilV(! predicted
the Stope or thi s mis!;ion or how overSight for t'ho contract mlgratC!d between cI)rprn3n ds
over the !,,,st 10 \'ears, Rcg3rdless, 1 t : TSC ttnd its subordln.1t(' units will continue to team
with ;aU process st akeholders In an effort to conlinuouslv Improve procC!s,cs, fI,,"1<JgcOlent
lind ovcrslght of the oper"Uon.



                                                                     . /,
 ~t9-U
                                                                                        - )
                                                                   . / ) 1/,                     y __
APPROVED BY :                                                      PREPARto~:,..tv V
NICKOLAS p, TOOUP.TOS                                              KElmETH c. Ol'ER
BG,USA
Oeputy COIl1ftVlndlng Ge{1Nill                   ClickCOL,
                                                       to LISA
                                                           add JPEG file




                                                                                                    49


U.S. Army Materiel Command, U.S. Army Contracting
Command, and Rock Island Contracting Center Comments




                                       DEPARTMENT OF THE ARMY
                                 HEADQUARTERS, U.S. ARMY MATERIEL COMMAND
                                             9301 CHAPEK ROAD
                                        FORT BELVOIR,IIA 22060-5527


                                                                               L7   s£p   2lI10
      AMCIR


      MEMORANDUM FOR DODIG, ATTN:                                                                 and
      Southwest Asia Operations, 400 Anny Navy

      SUBJECT: DODIG Draft Repon. "DOD Needs to Improve Management and Oversight of
      Operations at the Theater Retrograde-Camp Arifjan. Kuwait," August 6, 2010 (Project No.
      D20 10·0000JA·0055.000) (01005)


      J. The U .S. Amy Materiel Command (AMe) bas reviewed the subject draft report and the




                                  j,- -----
      responses provided by the U.S. Anny Contracting Command (ACe) and the Rock Lsland
      Contracting Center (RiCe). AMC endorses the enclosed response from ACe and RIce.




                                 Click to add JPEG file
      End                                      ~~~  Executive Depuly tTo°d:e
                                                       Commanding Genera l




                                                                50


                                 DEPARTMENT OF THE ARMY
                                 u.s. AflM' COHmACl1ftQ COfIUIAHD
                                        «101 CKAPII!!IC: ROAD
                                    FORT IInVOlJt. VA 2201006621




AMSCC-IR                                                                     AUG Z5    2IIe

MEMORANDUM FOR                             irector, [olema] Review and Audil Compliance
Office. Headquarten. U.S . Anny Materiel Command. 9301 Chapek Road, Fon Belvoir. VA
22060

SUBJECT: DoD Needs to Improve Management and Oversight of Operations at the Theater
Retrograde - Camp Arifjan. Kuwait (project No. D2010-DOOOJA-OOSS.OOO) (D1OOS)


L References:

    a. Memorandum, Rock lsland Contracting Center. CeRC, t 9 August 2010, sUbject: same
as above (enclosed),

   b. Memorandum, DoD Inspector General, 6 August 2010. subject: same as above,
                          Click to add JPEG file
   c. Draft Report. 000 lnspector GeneraJ, 6 August 2010, subject same as above.

2 . Having reviewed the documents at references Ib and Ie. the U.S. Army ContraCting
Command concurs with the comments within reference lao




Encl                                       ~f!:-:::-
                                                   Executive Director




                                  Pllnteo or   *   Recycled Papet




                                                              51


                                UNCLASSIFIED
                             DEf'NmI!NI' 011' THE ARIIY
                            ItOCK ISU.MD CONTIUICTINCJ C8TlR
                                  t fIIOCI( IIUrIIl AII8BIAL
                                ..acK \IL.NII), " tt. . . .


                                                                     AUG 1 9 2013


...........   ~        o..nl.   Depu'~~        of oar..... tOO A2aS' Ma.y DEi.. ...
Ad.iAv'toD. va 22202-4'0.
~: Dr&rt ~t: 00II _ _ to                        -=-
                                           ~t aDd

o...r.J.gbt. O~ OperatioUi at the ~~ a.t;.oqcade-C-P A%1.:fjaa,
a.._U. ho,_t 110. D2010-DOOO.D.-0055. 000

1. ftaD.JE:   yo'A ~or ~ opportwU. ~ t.o zwri_ the             .~t   zeport. oar
~t..          are eaGlo. . ..

2.




                                   Aatiq Axecu.U.,. Director
                                   RooJE I.l ...d CoataoUD" ce.ber




                               UNCLASSIFIED




                                                     52


                    DoDIG Draft Report
           DOD Neede to I~rova IlaDag_nt and
          OVereight of eparatioDB at the Theater
             Retrograde-C~ Arifjan. KUwait


A.4. We recommend the Executive Director Rock Island Contracting
Center:

a. Modify the contract to include the required Defense Federal
Acquisition Regulation clauses requiring compliance with laws
and regulations specific to processing export controlled
materiel.

RXCC ReapeD•• : Concur . RICe will incorporate applicable Defense
Federal Acquisition Regulations clauses. Expected completion
date: 30 September 2010.

b. Review the Administrative Contracting officer's change to the
processing of controlled materiel and assess compliance with
Federal, DOD, and Army regulations.

RICC R••peD •• : Concur. RIce will review the Administrative
Contracting Officer's change to the processing of controlled
materiel and assess compliance with applicable regulations.
Expected completion date: 30 September 2010 .

c. Require the Administrative Contracting Officer, Quality
Assurance Representative, Contracting Officer's Representative,
and Alternate Contracting Officer's Representatives to maintain
a conformed copy of the contract and update and consolidate all
contract files prior to their departure from Kuwait.

~cc Re~D.e : Partially Concur . RICC will require the
Administrative Contracting Officer, Quality Assurance
Representative, Contracting Officer's Representative, and
Alternate Contracting Officer's Representatives to maintain a
conformed copy of future contracts and update and consolidate
all contract files prior to their departure from Kuwait.
However, the current contract expires 30 September 2010. Due to
the voluminous amount of contract modifications (356) since
contract inception (circa 1999), there is no value in generating
a conformed copy of the current contract. RIce does maintain a
traCking spreadsheet of all contract changes (inclusive of
section e changes) .




                                        53


d. Re-develop and issue appointment letters for the
Administrative Contracting Officer, Quality Assurance
Representative, Contracting Officer's Representative, and
Alternate Contracting Officer's Representative that clearly
defines their roles, responsibilities, and authority for
providing contract administration and oversight .

RZCC . . ~n•• : Concur. RICC delegates contract administration to
Defense Contract Management Agency (DCMA). DCMA is responsible
for appointing Administrative Contracting Officers, Quality
Assurance Representatives (QAR) , Contracting Officer'S
Representatives and Alternate Contracting Officer's
representatives.

However, RICC has developed a Contract Administration Plan (CAP)
that clearly delineates roles and responsibi l ities by al l
performers (e.g . , DCAA, DFAS, DCMA, ACQ, QAR, etc.) The CAP is
under review by the DCMA-KU Commander. Upon approval, DCMA and
RICC will be signatory to the CAP. It is envisioned that the CAP
will be deployed for al l contract actions that wil l be delegated
to DCMA Kuwait for administration. Corrective actions considered
complete.

e . Direct the Administrative Contracting Officer to review the
Quality Assur ance Representative's monthly audit reports and
direct the Quality Assurance Representative to review the
Contracting Officer'S Representative monthly audit reports . The
reviews should ensure that DOD officials conducted the audits
appropriately, met the intent of the audit. discussed actions
needed with the contractor, and resolved the issues in a timely
manner.

RXCC Re~n.e :    Concur . It is our understanding that DCMA
current l y reviews OAR monthly audit reports since DCMA is
responsible for contract administration re l ative to quality
assurance and conducting the monthly audits. Additionally.
monthly management assessments (MMA) are being conducted. During
the MMA ' S, COR reports. corrective actions and other issues
relative to quality are discussed. Corrective actions
considered complete.


B. 3 . Recommend the Executive Director, Rock I sland Contracting
Center, re - evaluate the use and effectiveness of Letters ot
Technical Direction. It the Executive Director determines that
the Administrative Contracting will continue to issue Letters ot
Technical Direction, the Director should coordinate with the




                                        54


Co~nder,    Defense Contract Management Agency-Kuwait, and put in
place:

a. Standards that clearly define t h e requirements and
limitations of the Administrative Contracting Officer for
issuing Letters of Technical Direction and the supporting
documentation required, such as justifications, approvals, and
cost analyses.

RXCC r ••pon •• : Concur. RICC has developed a CAP that provides
guidance to the ACO on letters of technical direction. The CAP
is current l y under review by DCMA Kuwait. Expected completion
date, 30 September 2010 .

b. An internal review process to ensure appropriateness of the
Let ters of Technical Direction and concurrence from the
Commanders of the 1st Theater Sustainment Command and Defense
Contract Management Agency-Kuwait.

RXCC r ••pon •• : Concur. The CAP noted above wil l address the
internal process for executing Letters of Technical Direction.
Expected completion date: 30 September 2010.




                                          55


Defense Contract Management Agency International
Comments
                                                                                                            Final Report
                                                                                                             Reference



                         DEFENSE CONTRACT MANAGEMENT AGENCY
                        DEFENSE CONTRACT MANAGEMENT AGE NCY INTERNATIONAL
                                     635Q WALKER LANE, SUITE 220
                                   ALEXANDRIA, V IRGINIA 22310-3259




     DCMAl-H                                                                    September 14, 20 10


     MEMORANDUM FOR Assistant Inspector General Deparnnent of Defense, Program Director
                    Joint and Southwest Asia

     SUBJECT:      Response to Department of Defense Offi ce of Inspector General (DoD IG) Audit
                   Report" DOD Needs to Improve Management and O\'ersight of Operations at the
                   Theater Retrograde-Camp Arifjan, Kuwait: Project No. D2010-DOOOJA-
                   0055 .000" dated 6 August 2010 .

     DCMA provides the following comments to the draft report's find ings and recommendations:

     Finding A. Alanagemenl of Theater Retrograde Operations Needs Improvement

     DCMA Response to Finding A.: DCMA general ly concurs with the draft report's fmdings on
     pages 5 through 17. Wc offcr th e following specific comments to clarify actions taken since the
     audit was conducted:
                                    Click to add JPEG file
     1.) On page 4 the report states that, " .. internal control weaknesses existed within the Anny and
        DCMA's contract management, oversight, and administration of Theater Retrograde
        operations ."

         DCMA Response: Concur.

        Action Taken: Since the audit, DCMA has implemented a robust Management and Internal
        Control (M IC) Program that calls tor periodic reviews by DCMA International subj ect matter
        experts of the DCMA Quality Assurance. Contracting and Property s urveill ance procedures.
        DCMA has conducted two MIC reviews, one in February and one in August 2010. Both
        reviews found DCMA in compliance with evaluated processes in the areas of contract
        admin istration, quality, and property administration.

     2 .) On page S, the report states that, "This occurred becau~e Army and DCMA officials did not
          develop and implement effective policies and procedures for processing materiel at the          Revised
          Theater Retrogradc. rcsolvc all deficiencies identified during contractor perfonnance
          reviews, and perform administrative functi ons in accordance with their appointment letters
          and the Federal Acqui sition RegululiulI."

         DCMA Response: Non-concur in part. DCMA is not responsible for developing and
         implementing policies and procedures for processing material at the Theater Retrograde.
         These policies and procedwes are set forth in the term s and conditions of the contract.




                                                                   56


                                                                                                  2



   Additionally, DCMA QARs are not Subject Matter Experts (SM£) in Theater Retrograde
   Operations. While DCMA can oversee contractor operations per the Statement of Work,
   n C MA relies on the expertise of the Contracting Officer Representative (COR) to help
   identify the contractor's technical deficiencies.
                                                                                                      The checklists were
   Action Taken: Since the DODIG audit, DCMA Kuwait's Theater Quality Plan has since                  omitted because of
   undergone revision, establishing improved prUl::edures for quality o versight by specifically
   creating separate observations to audit for every line number and paragraph in the SOW. The
                                                                                                      length. Copies will
   surveillance checklists utilized by the DCMA QAR and the CORs have received a                      be provided upon
   comprehensi ve review and fe-wr ite, and now include additional contract requirements (see         request.
   Tab A) .

3 .) On page 7, the report states that, "Army and DCMA officials did not ensure that contractor
     personnel complied with security requirements to prohibit foreign nationals from
     unauthorized access to classified materiel during the recei ving process. Contractor personnel
     also had unauthorized access to potentially controlled materiel during the receiv ing,
     inspecting, and storing processes, which did not comply with security requirements. The
     contract required the contractor to comply with applicable security regulations for handling
     classified and controlled materi el according to the contract."

   VCMA Response : Concur.

   Action Taken: Securi ty requirements have been added to DCMA's surve illance checklists
   and are reviewed during monthly audits by both the QAR and the COR. The contractor
   updated its Standard Operating Procedure (SOP) on 15 March 2010 to direct personnel to be
   trained on recugnition of securi ty markings and proper handling of classified items on an
   annual basi s, at a minimum. Additionally, contractor policy now states that w hen classified
   or suspected classified material is discovered a western employee (Red Hat) with appropriate
   clearance will secure the items and follo w the appropriate protocol s to effect disposition of
   the classified material. The contractor currently has thirty (30) personnel categorized as Red
   Hats that inspect the seven (7) inspection lanes on a daily basis. Additionally, the current
   controlled material site and sensitive items cages have guards 24 hours a day. The controlled
   material site is sec ured using T-Wall style barriers, with concertina and barbed wirt!
   s urrounding the top . Access into the one entrance is controlled by a manned guard tower.
   Only personnel with controlled material site badges are granted entrance. The Accountable
   Officer, the Theater Retrograde Center Branch Manager, and the liranch Manager for
   Production Control are the only personnel that can grant access.

4.) On page 10, the report states that, "Army and DCMA officials did not ensure that TRC
    contractor personnel sto red hazardous material properl y or had the required equipment to
    safely respond to a hazardous spill in accordance with contract requirements .. .. However,
    while accompanying the QAR on hi" monthly audit ofTRC operations on January 29, 2010,
    we observed gas cylinders stored on their side and not properly braced or protected. "

   DCMA Response: Concur.




                                                              57


                                                                                                    J


   Action Taken: The current HAZMAT site is too small to adequately store the amount of
   material that transits through. The area is not temperature contrnl led, which also limited the
   amount and type of HAZMA T that can be safel y stored until disposition is determined. In
   November 2009, the 593 SB identified these issues and rec()mmended improvements to the
   HAZMAT area, which included a tent with temperature controlled storage. The
   improvements were part of the project upgrade packet that was submitted to the l SI
   Sustainment Command (Theater) (1 TSC) and went to the Army Ct=nlml Command
   (ARCENT) Combined Acquisition Review Board (CARS) for approval 11 June 2010. The
   tentative completion date of all the upgrades in the TRC is November 20 10. DCMA updated
   our Audit Checklist with observations to specificall y check to ensure the contractor is in
   compliance with the contract paragraphs C.S.24.25, Hazardous Material s (HAZMAT)
   Shipments, and C.5. 1.24.26, Hazmat Plan.

5.) On page 10. the report states that, "The contract also stated that the contractor shall have
    three hazardous material spill kitL . However, we observed that the contractor only had two
    spill kits on hand , and one of the kits was incomplete and not in an easily accessible location.
    In addition to the improper storage and the lack of required spill kits, the contractor also did
    not comply with the contract requirement to provide secondary contai nment de vice: during
    temporary and penn anent storage."

    UC MA Response: Concur.

   Action taken: The contractor has corrected the nonconfon11an ce. DCMA has continued to
   monitor compliance and no further defi ciencies have been noted.

6.) On page II , the report states that, "DCMt\ oft1ciaJs did nOI ensure that TRC contractor
    personnel complied with the contract by exercising due diligence and conducting adequate
    research to identify NSE that arrived without documentation. Army and DC MA official s
    also did not ensure that TRC contractor perso nnel contacted AMC or other appropriate
    offic ials for di sposition guidance in accordance with the contract."

    VCMA Response: Concur.

   ActiuD Taken: On 2 Man.;h 2010, i:1 Lt:lIt:r uf Tedmi(.;(11 Dirt:diun (LOTD). drafh:d by
   DCMA at the request of the COR. was provided to the contractor to funher explain the NSE
   research procedures. Under Section C .S.I.24. J3 of the contract statement o f work,
   unidentitied item s must be researched using the internet or GSA catalog for detenn ining the
   type of item and recommending pricing. Two Level l CARs and one LevelH CAR were
   filed in the past six months regarding improper handling of material s. The Level I CARs
   were reso lved in less than fi ve days. The LevelH CAR, filed 17 February 2010, was
   accepted 4 March 20 10 and closed out on 26 May 20 I O. DCMA continues to meet with
   CORs at lea..<;t once a week and are respon sive to the needs of the CORso DCM A has also
   worked to comp lete new audit checklists for the CORso The CORs received the checkli sts in
   April 20 10 and have been using them effectively. Additionally, the Q ual ity Assurance
   Representative completed checklists for measures of performance / effectiveness of the
   contractor's dail y acti vities. The new checklists include tracking methods for catalog build




                                                               58


                                                                                                     4


    accuracy. By monitoring the catalog builds in SARSS, the 1 SB developed a measure of
    effectiveness to evaluate how well the contractor is identify ing serviceahle materials..
    nCMA has also added a catalog bu ild accuracy leve l 0[90% to the next proposed incentive
    plan, dated 24 May 201 O.

7.) On page 14, the report states that, "the QAR relied on testimonial evidence from the TRC
    Department Manager . . "

    DCMA Response: Concur.

    Action Taken: VeM A QARs are trained to visually confirm contractor performance during
    their monthly scheduled audit. The QARs and CORs are trained to perform audits using this
    methodology. This is di scussed during initial QAR tran sition training and reiterated
    throughout the duration of the DCMA contingency contract deployment.

8.) On page 14, the report states that, "S ubsequent to the alternate CORs identifying deficiencies
    during performance reviews, the COR and QAR did not ensure the deficiencies wen:
    resolved. For example, the COR and QAR identified during a November 200~ audit that the
    spill kits in the TRC hazardous material area were incomplete."

   DCMA Response : Concur.

   Action Taken: The approved DCMA process is to document non-co nformances and ensure
   they are corrected . Upon initi al discovery of the deficiency in spill kits in their November
   audits, the QAR and COR adequately documented the non-conformance . However, the QAR
   did not adequately process the non-conformance per the DCMA Theater Quality Plan. Since
   the Contractor did not correct the non-conformance when first di scovered in November, the
   QAR should have written either a Levcl I or II CAH based on the ri sk associated with the
   consequence of the deficiency. A written CAR would have forced the conlr,u.:tur tu correct
   the confonnance.

   The contractor has corrected the nonconfonnance. DCMA has continued to monitor
   compliance and no further deficiencies have been noted with spill kits.

9.) On page 14, the report states that, "Although the alternate COR identified and reported the
    deficiency , the COR and QAR did not follow up on the issue to ensure the contractor
    personnel resolved it, and the alternate CaRs continued to identify and report the same issue
    fi ve times during that same month. To emure the audit" co nducted by the alternate CORs are
    useful and effecti ve, Army and DCMA officials should de velop procedures to ensure
    deficiencies are resolved in a timel y manner. "

   DCMA Response: Concur.

   Action Taken: The procedures in the DCMA Theater Quality Plan dictate that any
   nonconformity brought to DCMA ' s attention shall be immediately addressed with the
   contractor and a level! or level II CAR ""ill be submitted to the contractor. Effecti ve use of




                                                              59


                                                                                                  5


    these procedures will prevent reoccurrence of the reported finding, We now review
    compliance with these procedures as part of the DCMA MIC proces!>.

10.)On page 15, the report states that, "The ACO also acted without proper authority by
    approving changes to the contract for processit1g controlled matt:rit:! at the TRC.
    Specifically, the ACO approved the contractor's request to process only certain controlled
    materiel in a separate location, and according to the ACO appointment letter, the ACO did
    not have the authority to make that type of change. Based on the change, foreign national s
    were allowed to process the remaining controlled materiel along with all otht:r materiel [refer
    to Table 1 on page 9]. Because the ACO issued the change, DOD increased its risk that
    foreign national s could process controlled materiel, potentially impacting national security.
    Army and nCMA officials should review the changes and ensure compliance with Army,
    DOD, and Federal regulations."

   DCMA Response: We have not located do/;umentation of tht: change that i~ rt:ft:rc:nced in
   the draft audit report. Additionally, we canllut dt:termim:: [rom the draft report the type of
   contract change this was that the ACO was not authorized to make. DCMA ACOs are
   generally authorized to make administrative contract changes within the scopes of their
   warrants and the delegated functions assigned to DCMA for administration. Without
   reviewing the contract change document, we cannot agree that the ACO exceeded hi s
   authority. Without reviewing the contract change document, we cannot agree that the ACO
   exceeded his authority. Having the change document will also help us review with the Anny
   whether any changes made are in compliance with regulations.

Recommendation A.2. We recommend the Commander, 1st Theater Sustainment Command,
and the Commander, DefenJe Contract Management AGency-Kuwait:

       o. Update the au.dit standardized checklists for the Contracting Officer's Repre5entative
and Quality Assurance Representative to e"sure Ihey are able tu verify whether contrGCIOr
pernmnel cumplied with ,'un/ract requiremenu' and applicable Federal, DOD, and Army
regulations.

   UCMA Response: Concur.
                                                                                                      Statement of Work
   Action Taken: All audit/contract surveillance checklists were reviewed by DCMA QAR's               (SOW) Section
   and updated in conjunction with the COR checklists. Additionally, audit checkli sts are
   reviewed and updated when modifications are issued that revise Statements of Work (SOW).
                                                                                                      C.5.1.24,
   Newly appointed CORs, as the suhject matter experts, review audit checklists and SOWs to           checklists, and
   verify compliance with applicable Federal, DOD, and Army regulations. A revised checklist,         Theater Quality
   "Combat Support Services Contract - Retrograde Operatiom, SOW Section: C.S.l.24" is                Plan were omitted
   provided at Tab B. Spec ific findings from the DoDJG report were addressed in the updated          because of length.
   checklist (Tab A) . DCMA Kuwait also perfonned a comprehensive review and revis ion of
   its Theater Quality Plan (TQP) dated 24 June 2010 (Tab C).
                                                                                                      Copies will be
                                                                                                      provided upon
                                                                                                      request.




                                                              60


                                                                                                  6


       b. Develop procedures that ensure deficiencies identified by the Contracting Officer's
Representative. Alternate Contracting Officer 's Repre.,.entativl!, and Qualify Assuran~i'
Representative are ,eso/vnl in a timely manner based on the severity of the deficienC)'.

       DCMA Response: Concur.

       Action Taken: DCMA Kuwait has procedures in place to adequately lrad deficiencies.
       ConlracLdeficiencies are addressed through CARs and are tracked through the use of a
       CAR Log on a network share dri ve. All pertinent information, to include subject matter,
       milestone dates and current status, is included on the log. CARs are tracked through
       closeout and are verified up to six months after closeout as part of DCMA Kuwait' s trend
       analysis process as detailed in paragraph 6.0 CARs and associated Annexes of the TQP.
       Each QAR has access to the CAR Log which is monitored by the Lead QARs and the
       Theater Quality Assurance Representati ve on a weekly basis. Level II CARs require a
       Corrective Action Plan (CAP) from th e contractnr. The Q AR accepts/rejects the CAP
       with a CAP acceptance/reject lerter.

Recommendation A.3. We recommend the Commander, Defense Contract Management
Agency-Kuwait:

       a. Direct contractor personnel allhe Theater Redistribution Center to comply with the
business rules referenced in Recommendation A.l which recommended the j'l TSC coordinate
with the U.S. Army Material Command to develop business rules so that nonstandard
equipment at the TRC is reutilized to its maximum capahility.

       DCMA Response: Concur.

       Action taken: DCMA QARs can only monitor and enforce contractor performance to the
       standards set forth in the Statement of Work. The COR has the capability and
       responsibility to set the priorities within the tenns of the contract for the contractor to
       follow and to afTer technical guidance, but not to direct the contractor. Specificall y, for
       Recommendation A. I, should the Commander 1st TSC establish business rules that
       provide guidance to the contractor at the TRC, these business rules will need to be
       im.:urpurutt:d intu tilt;: Stutt:rnt:nt or Work thruugh a contract modification or contract
       action. This action will need to be iniriared by rhe 1S! TS C and processed through the
       ARCENT requirements process. Once the Statement of Work has been modified to
       include any business rule s changes, the QAR, in conjunction with the COR, will modify
       the surveillance audit checklist to include oversight of those changes.

        b. Direct contractDr personnel at the Theater Retrograde to comply with hazardous
material and security regulations as stated in the contract and export control laws and
regulation.f.

       OCMA Response: Concur.




                                                              61


                                                                                                   7



       Action taken: The contract itself directs the contractor to comply with hazardous
       material and security regulations. DCMA coordinates government responses to any
       contractnr questions regarding the processing of hazardous material and applicable
       security regulations. DCMA 's Quality Assurance function is to verify whether the
       contractor is complying with the terms and conditions of the contract. DCMA monitors
       the contractor's performance, reports deficiencies, and validates and monitors contractor­
       developed corrective actions. Should DCMA discovt:r contractor defil,;it:m:it:s and non­
       cOllfufmRw,;t:s thruugh tht: QAR or COR audiL process, OeMA will process this in
       accordance with our Theater Quality Plan. This may involve the processing of a CAR.
       Contractor deficiencies may also warrant the attention and direct involvement of the
       DCMA ACO depending on the immediacy, severity, and risk assessment of the
       deficiency.

Finding .n. increased Oversight Needed at the Theater Redistribution Center

DCMA Response to Finding 8.: DCMA generally com;ur:s with the dmft report's findings on
pages 19 through 26. We offer the following specific comments to clarify actions taken since the       Pages 22-29 

audit was conducted:

1.) On page 23, the report states that, "The ACO removed the perfurmam::e workload                     Page 26 

    requirement from the contract without proper authorization, written justification, or
    consideration."

       DCMA Response: Concur.

       Action Taken: DCMA ACOs are warranted and thus have received all applicahle
       training. Being fully trained, warranted ACOs are expecred to understand the limits of
       their warrants. Additional emphasis will be incorporated into the Basic Contingency
       Operations Training (BCOT) to highlight warrant and ACO limitations when writing
       LOTOs.

2.) On page 24, the report states that. "Both Army and DCMA uffit.:iab :Slatellthey wen: unable        Page 27 

    to provide wrinenjustification because the otlicials who had previousl y approved the
    remo val of the performance requirement had rotated. "

       DCMA Response: Concur.

       Action Taken: nCMA AC.Os. are warranted and thus have received all applicable
       training. As warranted ACOs, they are briefed on the limits of their warranted authority.
       The ACO should not have relieved the contractor of a performance requirement without
       adequate government consideration. DCMA continues to provide specific training to
       ACOs and CAs prior to deployment during Dasic Contingency Operations Training
       (BCOT). This training, along with their DAU training and experient.:e, are essential to
       ACOs making well thought out and thorough decisions on behalf of the government.
       Additionall y, ACOs and CAs are trained during BeOT and our "left-seat, right-seat"




                                                              62


                                                                                                     8


       transition training that maintaining thorough documentation in the contract folder is
       required.

       DCMA Kuwait's Records Management Standard Operating Procedure establishes a
       unifonn procedure for maintaining a contract file. Contracting files were recently audited
       during the MIC reviews for compliance, with no adverse findings.

3. ) Cumment: On page 26, the reporL slates "Army and DCMA officials should consider.
   shifting manpower from locations that are above the staffing requirement to locations that are        Revised, Page 29
   deficient. If staffing is still inadequate to process the containers in accordance with the
   applicable requirements, Army and DCMA officials should consider assigning Government
   persOimei to assist with operations allhe TRC,"

       DCMA Response: Non-concur. It is not withill DCMA':s Lldt:gated authority to shift
       contractor manpower without customer direction. Additionally, DCMA does nut assign
       Government personnel to assist with any contract operations.

Recommendation B.2. We recommend the Commander, 1st Theater Sustainment Command
and Commander, De/emil! Contract Manaxement Af:ency-Kuwait:                                              Renumbered as
                                                                                                         Recommendation
       a. Determine the Jtaffing required al the Theater Redifitrihutinn Center to process the
curren! and increased number of containers as tire drawdotvnfrom Jraq progresses. In
                                                                                                         B.1.c
addition, if the contractor cannot obtain the required staffing, consider assigning Government
personnel to assist with operatwm' at the Theater Redistribution Center.

       DCMA R(:sponsc: Non-concur. DCMA receives its FAR Subpart 42.302 delegated
       contract authority from the Procuring Contracting Officer. Neither FAR Subpart 42.302
       nor the contract delegation allows DCMA to determine contract requirements.
       Additionally, DCMA has no responsibility in detennining the need to supplement the
       contractor 's manning with government personnel, Both recommendations are the
       responsibility of the customer, l~t TSC. Certainly , DCMA can facilitate the right-sizing
       of contractor manning numbers should the l SI TSC request assistance.

        b. Document noncompliance with contract requiremenJl'. specifically the performanct
and !ftaffing requirements. and report the noncompliance during weekly and monthly
performance reviews for consideration in the Award Fee Board Review.

       DCMA Response: Concur.

       Action taken: Per the Kuwait Theater Quality Plan, DCMA monitors all contract
       requirements, to inr.:lude any n::4uirenH::nls rdated tu slaffing, thal are sper..:ified in the
       Statement of Work. Non-compliances that are discovered are processed as CARs. CARs
       are reported by the Q,<\R in the Award Fee process. DCMA and COR audit checklists
       have been updated to include surveillance of the contractor' s manning numbers and the
       contractor currently reports the manning numbers weekly.




                                                                63


                                                                                                                   9


        c. Mllill/ninall dOCItIllt!Il/(f{irm :JlflJportillg tile basi.\' /or flctiotls takell pertinent 10   'he
cOIi/racl, illc/ud;tlgjIlSlijicalimu, lIppmvals, amI cost allfl~Wjes in the cOli/met flle.

        DCMA Respunse: Concur.

        Ac(ion taken: DCMA Administrative Contracting Officers maintain all contrac t
        admini;;tration documents eleclronically according to OUf Records Management Standard
        Operating Procedure and FA R Part 4.8 .



                                                      ~)
                                          ~~
                                                  .


                                                      RDML. Sc. USN
                                                   Comm<'lnder. DC \IIA Internati onal




                                                                        64


